<html>
<title> - PROTECTING AND RESTORING AMERICA'S GREAT WATERS, PART II: CHESAPEAKE BAY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                        PROTECTING AND RESTORING
                        AMERICA'S GREAT WATERS,
                        PART II: CHESAPEAKE BAY

=======================================================================


                               (110-159)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
43-941                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland

                                  (ii)




            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             JOHN BOOZMAN, Arkansas
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
JERRY F. COSTELLO, Illinois          WAYNE T. GILCHREST, Maryland
TIMOTHY H. BISHOP, New York          VERNON J. EHLERS, Michigan
BRIAN HIGGINS, New York              FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
JOHN T. SALAZAR, Colorado            ROBIN HAYES, North Carolina
MAZIE K. HIRONO, Hawaii              HENRY E. BROWN, Jr., South 
HEATH SHULER, North Carolina         Carolina
HARRY E. MITCHELL, Arizaon           TODD RUSSELL PLATTS, Pennsylvania
JOHN J. HALL, New York               BILL SHUSTER, Pennsylvania
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California, Vice     JOHN R. `RANDY' KUHL, Jr., New 
Chair                                York
ELEANOR HOLMES NORTON, District of   CHARLES W. BOUSTANY, Jr., 
Columbia                             Louisiana
BOB FILNER, California               JEAN SCHMIDT, Ohio
ELLEN O. TAUSCHER, California        CANDICE S. MILLER, Michigan
MICHAEL E. CAPUANO, Massachusetts    THELMA D. DRAKE, Virginia
GRACE F. NAPOLITANO, California      ROBERT E. LATTA, Ohio
MICHAEL A. ARCURI, New York          JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Boesch, Ph.D., Donald F., University of Maryland, Center for 
  Environmental Science..........................................    29
Fox, J. Charles, Senior Officer, Pew Environment Group...........    29
Grumbles, Hon. Benjamin H., Assistant Administrator for the 
  Office of Water, United States Environmental Protection Agency, 
  accompanied by Jeff Lape, Director, Chesapeake Bay Program 
  Office, United States Environmental Protection Agency..........    12
Hoagland, Roy, Vice President of Environmental Protection and 
  Restoration, Chesapeake Bay Foundation.........................    29
Matuszeski, William, Former Director, 1991-2001, Chesapeake Bay 
  Program Office, United States Environmental Protection Agency..    29
Mittal, Anu K., Director, Natural Resources and Environment Team, 
  United States Accountability Office............................    12
Murphy, Jr., W. Tayloe, Attorney at Law, Warsaw, Virginia........    29
Najjum, Wade, Assistant Inspector General, Office of Inspector 
  General, United States Environmental Protection Agency.........    12
Sarbanes, Hon. John P., a Representative in Congress from the 
  State of Maryland..............................................     7
Swanson, Ann Pesiri, Executive Director, Chesapeake Bay 
  Commission.....................................................    29
Wittman, Hon. Robert J., a Representative in Congress from the 
  State of Virginia..............................................     7

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Boozman, Hon. John, of Arkansas..................................    49
Carnahan, Hon. Russ, of Missouri.................................    53
Costello, Hon. Jerry F., of Illinois.............................    54
Cummings, Hon. Elijah E., of Maryland............................    55
Mitchell, Hon. Harry E., of Arizona..............................    60
Sarbanes, Hon. John P., of Maryland..............................    62
Wittman, Hon. Robert J., of Virginia.............................    63

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Boesch, Donald F.................................................    66
Fox, J. Charles..................................................    72
Grumbles, Hon. Benjamin H........................................    80
Hoagland, Roy A..................................................    95
Matuszeski, William..............................................   103
Mittal, Anu K....................................................   106
Murphy, Jr., W. Tayloe...........................................   126
Najjum, Wade T...................................................   130
Swanson, Ann Pesiri..............................................   152

                        ADDITIONS TO THE RECORD

Ducks Unlimited, Robert D. Hoffman, Director, Great Lakes and 
  Atlantic Regions, written statement............................   158


[GRAPHIC] [TIFF OMITTED] 43941.001

[GRAPHIC] [TIFF OMITTED] 43941.002

[GRAPHIC] [TIFF OMITTED] 43941.003

[GRAPHIC] [TIFF OMITTED] 43941.004

[GRAPHIC] [TIFF OMITTED] 43941.005

[GRAPHIC] [TIFF OMITTED] 43941.006

[GRAPHIC] [TIFF OMITTED] 43941.007

[GRAPHIC] [TIFF OMITTED] 43941.008

[GRAPHIC] [TIFF OMITTED] 43941.009

[GRAPHIC] [TIFF OMITTED] 43941.010

[GRAPHIC] [TIFF OMITTED] 43941.011



 HEARING ON PROTECTING AND RESTORING AMERICA'S GREAT WATERS, PART II: 
                           THE CHESAPEAKE BAY

                              ----------                              


                        Wednesday, July 30, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. The Subcommittee comes to order this 
afternoon.
    We are holding a hearing on protecting and restoring 
America's great waters, the Chesapeake Bay, and I would like to 
ask unanimous consent that Congressman Cummings and 
Congresswoman Edwards be allowed to participate in the 
Subcommittee hearing.
    Today, we will conduct this second in a series of hearings 
to assess the state of our Nation's great waters and what it 
will take to better protect and restore them.
    Today's hearing focuses on the Chesapeake Bay. We will 
receive testimony from the GAO, the EPA, the Chesapeake Bay 
Commission and the University of Maryland regarding the 
condition of the Bay and their recommendations on implementing 
action to safeguard and restore this national treasure.
    Narrowing our focus from the previous hearing on coasts and 
estuaries, the Subcommittee will now examine our Country's 
largest estuary, the Chesapeake Bay. Covering roughly 64,000 
square miles, the watershed covers the District of Columbia and 
six States: Delaware, Maryland, New York, Pennsylvania, 
Virginia, and West Virginia. The Bay itself is nearly 20 miles 
long and 35 miles wide, with a total shoreline of 11,684 miles 
including its tributaries.
    A complex ecosystem, the Bay is home to 3,700 species of 
plants and animals including rockfish, bald eagles, blue crab 
and oysters. Known for its abundant production of seafood and 
therefore serving as an important link in this region's 
commerce, many of the Bay's animal populations are being 
depleted. The delicate balance of the entire Bay now suffers 
from diminishing production and is at risk from water quality 
degradation and loss of aquatic vegetation.
    As a result, the habitats of the Bay ecosystem and 
watershed are at risk, resulting in increased concerns from 
communities in the region.
    Furthermore, the Chesapeake Bay remains an important 
tourism feature for the economies of the District of Columbia, 
Maryland, and Virginia. The restoration and protection of this 
waterway is vital not only for the obvious environmental 
reasons but for the impact on regional livelihood and identity.
    It has been well-established that the Bay suffers from a 
variety of sources of pollution. Chief amongst them are the 
nutrient and sediment runoff from the rich agricultural lands 
in the watershed. But deposition from cars and power plants, 
stormwater from our rapidly growing communities, and nutrients 
and toxics from industry and wastewater treatment facilities 
are also major factors.
    Additionally, wastewater treatment facilities contribute 
significantly to nutrient dumping into the Bay and its 
tributaries. It has also been discovered that new land 
developments are also causing an increase in nutrient and 
sediment loads at rates faster than restoration efforts can 
reduce them.
    As early as this week, the National Oceanic and Atmospheric 
Administration released a report stating that this year's blue 
crab population is even lower than last year's alarmingly low 
level. It states that the population of spawning-age blue crabs 
in the Bay for 2007-2008 was 120 million. This is down from 143 
million during the 2006-2007 season and highlights that the 
Bay's signature species is in danger. Last year's take was 43.5 
million pounds, the lowest level since 1945.
    For the sake of our watermen, for the sake of the Bay's 
health, and for the sake of this region's identity, we must 
move forward in protecting and restoring the Bay, and we must 
do it better than we have in the past because we are nowhere 
close to the level of success and sustainability that we should 
be. This is not to say that nothing has been done, but it is to 
say that much, much more needs to be achieved.
    Since the 1980s the Federal Government has been involved in 
Bay restoration activities. Largely through the Chesapeake Bay 
Program, the Federal Government has invested sizable resources 
into the Bay.
    Our level of knowledge about the Bay--its ecosystems, its 
impairments, its tolerance for pollutants--is probably greater 
than for any other body of water in the country, and yet the 
Bay seems to suffer ever-more from pollution. And in line with 
this, the habitat and living resources of the Bay have become 
ever-more degraded.
    It has been 25 years since the Chesapeake Bay Agreement was 
first signed. Since that time, the EPA, the Chesapeake Bay 
Commission, the District of Columbia as well as the States of 
Maryland, Pennsylvania, Virginia, Delaware, New York, and West 
Virginia have worked hard toward improving conditions in the 
Bay.
    Given the length of time that the EPA and other parts of 
the Federal Government have been trying to heal the Bay and 
given the amount of resources we have dedicated to it, we 
should have a stronger record of success than we presently do. 
It seems obvious to me that we need a new approach. I feel 
strongly that in lieu of intensive research initiatives, a 
greater emphasis on implementing a plan that will actually 
restore the Bay is now needed.
    As we all know, such goals are not easy to achieve and 
yield many questions: Through what mechanism will we provide 
increased funding for addressing our wastewater and stormwater 
infrastructure? How can we best address non-point source 
pollution from agricultural lands?
    What is the best approach for reducing airborne emissions 
that degrade our waters? And how do we work with our State and 
local partners to promote smart growth and development? These 
are all questions we need to and must face.
    Obviously, what we as policymakers put forth in a future 
reauthorization of the Chesapeake Bay Program will have 
significant ramifications on the future health of the Bay.
    As such, addressing these major drivers of Bay pollution 
will be challenging on a variety of levels: political, policy 
and fiscal. Nevertheless, it is my view that we must put aside 
our differences and work together to overcome any obstacles 
with a collective and united eye towards restoring a national 
treasure.
    It is with this in mind that I would like to acknowledge 
one of my long-time colleagues on the Committee, Congressman 
Gilchrest. Congressman Gilchrest has been a tireless advocate 
in his efforts to raise and focus our attention to the 
importance of protecting and restoring the Chesapeake. The 
people of this region can only hope that whomever his successor 
is, Republican or Democrat, that person will be as dedicated to 
restoring this precious body of water as has Representative 
Gilchrest.
    We certainly will miss him.
    I now yield to my Ranking Member, Mr. Boozman, for an 
opening statement.
    Mr. Boozman. Thank you, Madam Chair.
    I also would echo the hard work that Mr. Gilchrest has done 
on this particular project and on so many others and, again, 
that we will very much miss him and all that he has contributed 
to this Committee and Congress in general.
    The Chesapeake Bay is the largest estuary in the United 
States and is critical to the economy, environment and way of 
life for millions in the Mid-Atlantic area. Covering some 
64,000 square miles, the watershed spans parts of six States 
and the District of Columbia and is home to 16 million people.
    There are 150 major streams and tributaries in the 
Chesapeake Bay Basin. The Bay is an important environmental 
feature in the region. It is home to billions of waterfowl and 
a vast array fish, shellfish and other aquatic plants and 
animals.
    For the human population, the Chesapeake Bay provides 
millions of pounds of seafood, a wide variety of recreational 
opportunities and is a major shipping and commercial hub. Two 
of the Nation's largest ports are on the Chesapeake Bay: 
Baltimore, Maryland and Hampton Roads, Virginia.
    Beginning with the colonial settlement and until today, 
land use activities and changes in the watershed have affected 
the health of the Chesapeake Bay.
    Public concerns about the health of the Bay have been 
raised since the 1930s. The deterioration of the Chesapeake Bay 
can be seen in a decrease in water clarity, a decline in oyster 
and crab populations and a lack of underwater grasses. There 
are even areas of the Bay that are dead zones where there is 
not enough oxygen in the water to sustain life.
    The EPA says the major causes of the Bay's deterioration 
are excess nutrients and sediments coming from farmlands, 
wastewater treatment plants and urban runoff. Septic systems 
and air deposition of emissions from power plants, cars and 
trucks also contribute to the degradation.
    In the next 25 years, an additional 3.7 million people are 
expected to be living in the Chesapeake Bay watershed. As more 
concrete and asphalt replaces forest and open spaces, the 
runoff of nutrients and sediments into the Bay will increase.
    However, it is this same growth and development that 
provides the economic stability for the region. The Bay region 
must balance economic development with the need for clean water 
and a healthy environment. To do this, the region needs to be 
smart in how it grows in the future in order to minimize the 
impacts on the Bay.
    The Chesapeake Bay Program was created many years ago to 
address the degradation of the Bay. In 1987, the program was 
authorized formally by Congress in the Clean Water Act. Today, 
the program is a partnership of States, local entities and the 
EPA that directs and conducts restoration of the Chesapeake 
Bay.
    The Chesapeake 2000 Agreement sets ambitious restoration 
goals to be met by 2010.
    A lot of money has been spent over the years to clean up 
the Bay. In the past 12 years alone, nearly $4 billion in 
direct funding has been provided to the program from the 
Federal Government and the States. An addition $2 billion in 
indirect funding has gone to programs that aim to improve the 
health of the Bay.
    The EPA also has provided over a billion dollars in the 
program partner States through the Clean Water State Revolving 
Loan Fund to help pay for wastewater treatment improvements. 
However, while EPA reports that some progress has made in 
cleaning up the Bay, substantial challenges remain.
    It is now clear the Chesapeake 2000 Agreement's ambitious 
restoration goals will not be met in 2010. More needs to be 
done. All of the program partners and stakeholders need to make 
some hard decisions and a stronger commitment if we ever hope 
to achieve the Bay restoration goals.
    Right now, it is not so clear whether everyone is willing 
to make the hard decisions and be truly committed to getting 
past the talking and planning and on to cleaning up the Bay. 
Because Federal dollars will be limited, it is important to 
invest in activities that will directly clean up the Bay.
    Today, we have an assembled an excellent group of expert 
witnesses to help us consider the Chesapeake Bay Program that 
is now up for reauthorization. I look forward to hearing from 
each of the witnesses on how we can improve the performance of 
the Chesapeake Bay Program and increase the accountability of 
the program and its partners to achieve the Bay restoration 
goals.
    I yield back, Madam Chair.
    Ms. Johnson. Thank you very much, Mr. Boozman.
    Ms. Eleanor Holmes Norton.
    Ms. Norton. Thank you very much, Madam Chair.
    I very much appreciate this hearing, and I am sure the 
region appreciates it, but surely the Country should appreciate 
it. If there were a list of the Seven Natural Wonders of the 
United States, I don't see how the Chesapeake Bay could be left 
off of that list.
    I must join with my colleagues in regretting the loss of 
Mr. Gilchrest. Mr. Gilchrest has been, what is it? The 
gatekeeper? The lighthouse keeper? He has been the repository 
of unique expertise and advocacy.
    Sure, there are a lot of us who are advocates. None of us 
begins to have his encyclopedic knowledge and understanding of 
the Bay over time and what it needs now.
    I hate to say he has irreplaceable knowledge because, 
somehow or the other, we are going to have to find a way to 
replace it. One of the ways we are going to find is to keep 
drawing on you because we really cannot do without what Mr. 
Gilchrest has been able to do for our Subcommittee and for our 
Committee and its work on the Bay with these hearings which we 
have regularly been holding.
    Madam Chair, there is very deep concern on our Committee 
about large changes in the environment in our own region. We 
perhaps see evidence of some of the largest and most disturbing 
changes of all right here in our own Bay.
    I just don't know what to think when I read about intersex 
fish. I really don't know how to process that information.
    I do know how to process information that the crab hauls 
are markedly down. I know how to process that because I know 
how to count.
    The crab gives this region its identity in the Country. The 
notion that there could be such short drops in the haul has got 
to be disturbing. If you are not disturbed about what is 
happening in the Bay, think about what is happening to one of 
its major economic drivers.
    In his testimony, Mr. Grumbles, the Water Administrator, 
concedes, as he delicately puts it, that development in the Bay 
watershed is outpacing progress in goals. Really?
    The development in the Bay watershed has been predictable 
all the time. It is no surprise to us. But intersex fish are a 
surprise to us and an intolerable one.
    He tells us that we lose a hundred acres of watershed 
forest lands each day, and then we look at what we are doing 
about it. It is enough to discourage you, especially when you 
recognize you are in one of the richest regions in the Country. 
This is not some backwater region where people just have to let 
it go.
    Yes, we are in the process of designing the largest plan 
ever to reduce pollution in the Bay. We are not sitting here 
and doing nothing, but I am frustrated by plans that appear to 
have so little in the way of measurable action forward.
    Madam Chair, on the Chesapeake Bay, we have been paddling 
backwards. Maybe if we had no plan, we would not be where we 
are today, but one can only express profound disappointment 
that plans we have benefitted the Bay so little that there is 
no room for self-congratulation about progress on the Bay, 
however one might measure that.
    Sitting here in a major area which contributes urban non-
point pollution, I am particularly concerned about that form of 
pollution.
    I hope I can wait out most of the testimony. I have been 
asked to come to an important meeting affecting the District of 
Columbia, so I may not hear it all.
    So, Madam Chair, I do want to say that those of us who live 
in, particularly, our urban areas know we bear some of the 
responsibility, and I think we are going to have a great deal 
of responsibility and are going to have to make our local 
governments take more responsibility than they have.
    Now when it comes to point sources, we have been able 
through regulation to get at a fair amount of that, from 
factories and the like, but I fail to see the progress on non-
point solutions. As far as I can tell, it is because there is 
no action item there.
    Because there is no action item, the local jurisdictions do 
not feel that--I will be through in one second--they have to do 
anything to meet non-point source allotted reductions. Until we 
face the fact that, among us, the Federal Government and the 
local jurisdictions have to embrace the major sources of 
unattended pollution, we will continue to go downstream even as 
we are trying to paddle upstream.
    I thank you for your indulgence, Madam Chair.
    Ms. Johnson. Thank you very much.
    We have a vote on, and the second bell has already rung. So 
we are going to recess.
    I think Mr. Gilchrest would like to make his statement.
    Would you like to make your statement now? We have 10 
minutes, rather than 5.
    Mr. Gilchrest. I will be 30 seconds, Madam Chairman. Thank 
you very much.
    I want to thank my colleagues for their kind condolences on 
the loss of my election. Being a politician is one of those few 
rare moments where you can hear your own eulogy and thank the 
people for their kind words.
    Just a few comments on the proposed legislation and the 
witnesses that will testify. There has been a great deal of 
work done over the many decades that all of you have 
contributed to the resolution of trying to deal with the 
degradation of the Chesapeake Bay and its tributaries.
    We pretty much know now that human activities in all its 
various forms, whether it is agriculture, development, 
stormwater, air pollution, human activity is not compatible 
with nature's design. That is the fundamental issue here.
    The Federal Government has contributed large sums of money. 
Scientists have engaged in these issues of an ecological 
approach for many years now. We are now looking into how to 
deal with TMDLs, how to deal with climate change, how to deal 
with the recent Supreme Court decision that sort of knocks out 
our role with air pollution from one State to another State.
    But the issue here, I think, that we really need to focus 
in on, Madam Chairman, is that the science is available for us 
to understand how we can reverse and paddle that canoe forward, 
Eleanor, and not in reverse, and that is local government, 
local government, local government.
    That is where land use decisions made. That is where the 
forests need to be replanted. That is where the buffer zones 
can go. That is where the development can be more compatible, 
more ecologically sustainable.
    The issue here is a vital one for the sustainability of 
future generations. The planet has limited resources. This has 
been a dynamic economy in this region of the world for 400 
years.
    Prior to European colonization, Native Indians, American 
Indians were relatively compatible with nature's design in that 
they were not this blunt force stopping the cycles of nature. 
The storm cycles, the calm cycles, the fish cycles, the weather 
patterns, the climate cycles, these were all compatible with 
nature's long-term design.
    Then we came in, and we are one dull thud. A sewage 
treatment plant doesn't have cycles. It just contributes 
nitrogen and phosphorus.
    Streets are not compatible. They are not cycles. They 
contribute constantly with stormwater.
    Human activity is one dull thud that has impacted and 
degraded this magnificent estuary.
    And so, we do know how to make us more compatible. We know 
how to do it with stormwater. We know how to do it with sewage 
treatment plants. We know how to do it with managing our 
fisheries. We know how to do it with agriculture.
    What we need now is what Ben Grumbles said in his 
testimony: adapt, innovate and accelerate that information in a 
very broad way.
    So, thank you very much for the kind words, Madam Chairman, 
and I look forward to the testimony.
    Ms. Johnson. Thank you very much.
    We are going to recess until we complete these votes, and 
we will be right back.
    [Recess.]
    Ms. Johnson. The Committee will reconvene, and I request 
that any further opening statements be filed for the record.
    I now call on our first witness, the Honorable John 
Sarbanes.

 TESTIMONY OF THE HONORABLE JOHN P. SARBANES, A REPRESENTATIVE 
IN CONGRESS FROM THE STATE OF MARYLAND; THE HONORABLE ROBERT J. 
    WITTMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
                            VIRGINIA

    Mr. Sarbanes. Thank you very much, Chairwoman Johnson, 
Ranking Member who will be back shortly, I am sure, and other 
Members of the Committee that may join us for allowing me to 
testify today. Thank you for holding the hearing on Chesapeake 
Bay environmental restoration and protection.
    I think you are going to find a refreshing bipartisan 
consensus among the Members representing the Chesapeake Bay 
watershed that we must be successful in our efforts to save the 
Bay. That this consensus exists at all is in and of itself, I 
think, a very strong statement about the Bay as a historic 
cultural, economic and environmental symbol for this region.
    I am proud to represent Maryland's Third Congressional 
District whose residents have a strong tradition of 
environmental advocacy rooted in a passion for the Chesapeake 
Bay.
    The Bay is our Nation's largest estuary, as you know, and 
in many ways it is the soul of the State of Maryland. It is a 
national environmental treasury and an economic catalyst as it 
pertains to the region's tourism and seafood industries.
    I, too, just wanted to echo the praise of Wayne Gilchrest 
for his incredible work on behalf of the Chesapeake Bay. I 
think in many ways the Chesapeake Bay is part of Wayne's soul, 
and he communicates that with all the initiatives he undertook 
over these many years on behalf of the Bay.
    I also want to say how pleased I am that Congressman 
Wittman is here to testify as well. We have had the chance to 
collaborate on some initiatives in the Natural Resources 
Committee with respect to the Chesapeake Bay, and he is a real 
champion of its preservation.
    We are all committed to the health of the Bay. 
Unfortunately, the Bay's health has been significantly affected 
by multiple factors from locally produced nutrient runoff to 
sea level rise as a result of global warming.
    I am committed to reversing these trends and restoring the 
Bay's water quality and natural habitats. There is no doubt 
that the EPA's Chesapeake Bay Program is absolutely essential 
to those efforts, and I welcome the opportunity to improve upon 
its work.
    Although the EPA is the lead agency for the Chesapeake Bay 
Program, the program is actually a partnership among several 
Federal agencies as well as the States of Maryland, Virginia, 
Delaware, Pennsylvania, New York, West Virginia and the 
District of Columbia. County and municipal governments have 
also made strong contributions to the Bay restoration effort.
    This widespread participation allows for more resources to 
be brought to bear, but it also poses challenges with respect 
to setting common goals, coordination, management and 
evaluation. I expect that these challenges along with overall 
funding commitments will be among the most common topics of 
debate as you begin to craft reauthorization legislation.
    I look forward to contributing to that discussion. I hope 
that Members from the Bay region who are absolutely committed 
to succeeding in our efforts to save the Bay can work with the 
Committee to ensure the program achieves its water quality and 
living resource goals.
    In closing, I am very pleased to have the opportunity to 
testify today before the Committee. I hope the Chair will 
indulge me for just one moment to say that the Water Resources 
Development Act reauthorization next year is also very critical 
to the Bay cleanup.
    The Army Corps of Engineers is an integral partner in the 
Chesapeake Bay Program. I, along with 21 other Members 
representing Bay watershed districts, have introduced 
legislation, H.R. 6550 to expand the Corps' role in Bay 
cleanup.
    The legislation would make permanent the Corps' Chesapeake 
Bay Environmental Restoration and Protection Program which was 
established as a pilot program under WRDA 1996.
    It would also expand the Corps' work to all six States in 
the Bay watershed and the District of Columbia and provide 
flexibilities for the Corps to work with other Federal 
agencies, State and local governments and not for profit groups 
engaged in Bay cleanup.
    I also believe we should authorize the Corps on a pilot 
basis to engage in stormwater management projects in the Bay 
watershed.
    I welcome the opportunity to discuss these proposals with 
Members of the Committee in the future, and I look forward to 
working with you on the EPA program reauthorization and WRDA 
next year. Thank you again.
    Just as I come to the close of my testimony and depart from 
the written statement, I just want to say that there is a 
recognition that we have to have a partnership between the 
citizens of the Chesapeake Watershed and government and non-
profit organizations to save this incredible national treasure.
    We can do it. We have the will to do it. We have to have 
all the implementation in place to make it happen. I look 
forward to the reauthorization.
    Thank you very much. I yield back.
    Ms. Johnson. Thank you very much.
    Mr. Wittman.
    Mr. Wittman. Thank you, Chairwoman Johnson. I thank you for 
the opportunity and, Members of the Committee, thank you for 
allowing me to be here today to discuss an issue important to 
me and my constituents, the Chesapeake Bay.
    I am very grateful to the attention you are paying to 
estuary restoration with hearings on improving America's great 
waters. As we all know, the Chesapeake Bay has been one of the 
most productive bodies of water in the world, and hopefully we 
will continue to allow it to maintain that status.
    I would like to also thank Wayne Gilchrest for his 
leadership and for his passion on Bay issues. He has been out 
there in the forefront, and we all know what a treasure that is 
for our Nation.
    Wayne, I appreciate your leadership there.
    I also would like to thank Congressman Sarbanes again for 
his leadership and for his initiatives. It has been an honor to 
be a partner with him on a number of those.
    I look forward to being a partner with you there in the 
future. So, thank you very much.
    I am fortunate to represent Virginia's 1st District which 
stretches from the exurbs of Washington, D.C. to Hampton Roads.
    Although I am new to Congress, I am not new to the 
challenges and issues confronting the Chesapeake Bay. For the 
last 20 years, I have served in local and State government on 
the front lines of Bay restoration activities. During my time 
in the Virginia General Assembly, I served on the Agriculture, 
Chesapeake and Natural Resource Committee and for the last 18 
years prior to serving in Congress, my day job had me 
monitoring water quality and environmental health issues in the 
Chesapeake Bay watershed.
    Thanks to high levels of Federal, State, local and 
stakeholder participation, there are many success stories in 
the Chesapeake Bay like dramatically increased numbers of 
striped bass.
    However, there are many sobering statistics as well. Blue 
crab populations are down 70 percent since 1990. Native oyster 
populations are currently at less than 1 percent of historical 
levels. Reductions in nutrient and sediment pollution are way 
behind schedule to meet the Chesapeake Bay 2000 Agreement 
goals.
    We still have a lot of work to do. There are extraordinary 
challenges out there in front of us.
    I want to commend and recognize, though, the significant 
effort by EPA and other Federal, State and non-governmental 
organization partners in preparing the Chesapeake Bay Action 
Plan. The EPA's July, 2008 report outlines significant 
accomplishments in meeting the GAO's 2005 recommendation and 
outlines a way forward for the remaining years under the 
Chesapeake Bay 2000 Agreement.
    I want to outline some of the key principles that I would 
like to encourage the Committee to consider as Congress 
continues to evaluate and plan for ongoing restoration 
activities in the Chesapeake Bay.
    First, there must be performance-based measures to assure 
that dollars currently spent on Bay restoration activities are 
producing results. Before we can evaluate a program, we need to 
know what projects are out there. The Chesapeake Bay Action 
Plan's Activity Integration Plan is a key step in organizing 
restoration activities into one database.
    Before now, it has been difficult, if not impossible, to 
have a complete list of ongoing restoration activities. 
However, as I understand it, this database, at least in the 
initial phase, will not be publicly accessible.
    I would suggest that a comprehensive accounting of all Bay 
restoration activities available to everyone including 
Congressional oversight committees, appropriators and 
stakeholders should be an important component going forward in 
order to ensure program effectiveness.
    The next step is to evaluate programs in meeting goals and 
ensuring effective implementation. For complex environmental 
restoration activities like the Chesapeake Bay, adaptive 
management can be a very useful tool to meet the scientific and 
policy challenges inherent to ecosystem management. I am 
encouraged that the Chesapeake Bay Action Plan includes a 
significant adaptive management component.
    I believe that this Committee and all partners should 
embrace an active adaptive management component for Bay 
restoration activities to ensure the best management outcomes 
with finite financial resources. Accounting and adaptive 
management are vital, in my mind, as key components for any 
complex environmental restoration project, especially the 
Chesapeake Bay.
    I have drafted legislation that I want to introduce this 
week, and my legislation would implement a cross-cut budgeting 
requirement for Chesapeake Bay restoration activities.
    Cross-cut budgets are an accounting process that has 
recently been enacted for the Great Lakes, the Everglades and 
the California Bay Delta Region. For these restoration 
activities, it has been critical.
    Cross-cut budgets can be important tools that foster 
accountability and are useful in measuring progress and 
assessing program effectiveness.
    My legislation would also require the EPA to implement 
active adaptive management to guide restoration activities in 
the Chesapeake Bay watershed with an eye towards results and 
effectiveness from the State level to the Federal level and 
also down to the local level. My goal would be to build on the 
initial steps EPA has outlined in their Chesapeake Bay Action 
Plan.
    Secondly, I would like to highlight the importance of water 
fowl species and efforts to restore wetlands within the 
Chesapeake Bay watershed. As an avid waterfowler and lifetime 
member of Ducks Unlimited, I am particularly interested in 
restoring quality habitat for waterfowl.
    The Bay has a rich heritage of plentiful waterfowl. 
However, changing land use patterns and degraded water quality 
have negatively impacted prime wintering habitat
    Ducks Unlimited and other non-profit organizations are 
vital partners in the efforts to clean up the Bay and protect 
habitat. Ducks Unlimited along with Federal, State and local 
partners have made significant progress in meeting wetlands 
restoration goals, and I encourage this Committee to continue 
its support for wetlands restoration as a key component of 
Chesapeake Bay restoration activities.
    Finally, both commercial and sport fishing industries are 
suffering from poor water quality in the Bay. By cleaning up 
the Bay, we can increase the oysters, crabs and fish available 
to both commercial and sport fishermen.
    Watermen and fishermen contribute to local economies, and 
these men and women are also representative of an important 
part of the heritage of the Bay. We must make sure that this 
way of life does not fade into history. These activities are a 
vital part of the economy and heritage of this Nation and are 
fundamental parts of maintaining our quality of life.
    Thank you again, Chairwoman Johnson and Ranking Member 
Boozman for allowing me to testify today, and I stand ready and 
willing to support and work with you to continue efforts to 
restore our Chesapeake Bay.
    Ms. Johnson. Thank you very much.
    This completes the testimony of our first panel. We have a 
policy not to question you in public.
    [Laughter.]
    Ms. Johnson. Our second panel of witnesses consists of Mr. 
Benjamin Grumbles, and he is accompanied by Mr. Jeff Lape from 
EPA, Anu Mittal from GAO and Wade Najjum from EPA OIG.
    Your full statements will be placed in the record, and we 
ask that you try to limit your testimony to about five minutes 
as a courtesy to other witnesses.
    We will proceed in the order in which the witnesses are 
listed, and I suppose that, Mr. Grumbles, you can proceed. The 
other witnesses will be called at your discretion or will they 
be testifying?
    Mr. Grumbles. He is here to help me on the question.
    Ms. Johnson. Okay. Thank you very much, and you can begin 
your testimony.

  TESTIMONY OF THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT 
     ADMINISTRATOR FOR THE OFFICE OF WATER, UNITED STATES 
   ENVIRONMENTAL PROTECTION AGENCY ACCOMPANIED BY JEFF LAPE, 
    DIRECTOR, CHESAPEAKE BAY PROGRAM OFFICE, UNITED STATES 
   ENVIRONMENTAL PROTECTION AGENCY; ANU K. MITTAL, DIRECTOR, 
     NATURAL RESOURCES AND ENVIRONMENT TEAM, UNITED STATES 
  ACCOUNTABILITY OFFICE; AND WADE NAJJUM, ASSISTANT INSPECTOR 
      GENERAL, OFFICE OF INSPECTOR GENERAL, UNITED STATES 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Grumbles. Thank you very much, Madam Chair.
    I am Benjamin Grumbles, Assistant Administrator for Water, 
and I am accompanied by Jeff Lape, the Director of the 
Chesapeake Bay Program.
    It is always an honor and a pleasure to appear before the 
Subcommittee, and I just want to start by thanking you and your 
colleagues for drawing such attention to the importance of 
great waters and water bodies across this Country, including 
the Chesapeake Bay.
    I know that you are also focused on others throughout the 
Country, including the Great Lakes, and the timing is critical 
for that as the President has recently issued a statement of 
strong support for congressional efforts to pass the Interstate 
Compact on the Great Lakes.
    But today, we have the opportunity to discuss the 
importance of the Chesapeake Bay, the efforts of the U.S. EPA 
and our partners in the Chesapeake Bay Program.
    Madam Chair, my testimony, my written testimony is rather 
lengthy, and so I am not going to read it.
    And, I am not going to focus on the accomplishments, 
although it is quite tempting to do that because there are many 
and they are often forgotten. The Chesapeake Bay Program and 
the partners throughout this very large watershed have taken 
important steps over the years and done a lot of good, but of 
course what we are focused, as Congressman Gilchrest, is on 
ensuring that we are best equipped to adapt, to innovate and to 
accelerate the restoration and protection.
    We know--EPA certainly knows--this from our position. We 
know that we have a lot of work to do, and there are 
significant challenges.
    I want to focus on a date, July 14th of this year. That is 
the day in which we and our partners sent to Congress a 
Chesapeake Action Plan. That is a significant step. We believe 
it is a true milestone in efforts to focus on full-scale 
implementation, to embrace the principles of cooperative 
conservation which certainly has been a shining example 
throughout this Administration of our approach to environmental 
progress through partnerships.
    But the Chesapeake Action Plan is also an emphasis on 
coordinated restoration, integrated efforts. We are listening, 
Madam Chair. We are listening, and we believe we and our 
partners are adapting to the concerns or criticisms expressed 
by those who are overseeing the program and want us to do more.
    In addition to cooperative conservation and coordinated 
restoration, there is the all-important principle of collective 
accountability.
    So we think that the Chesapeake Action Plan is very 
important. It includes a strategic framework. It includes an 
operating plan so that we get into the details of taking 
concrete and not so concrete, softer paths and steps towards 
implementation.
    It also includes a very important component, and that is 
dashboards on 11 key measures so that a high level assessment 
of the 11 key, critical features of progress and challenges in 
the Chesapeake Bay.
    Between the strategic framework and the action plan, the 
operating plan and the dashboard, we think it is a very 
important, critical plan for progress.
    And the last part of it is adaptive management, making sure 
that we, that the Federal, State and local levels adapt and 
respond to the challenges ahead.
    What are the challenges? You have already heard, and I know 
you and your colleagues are very much aware of this. Because 
the Chesapeake Bay is the largest estuary throughout this 
Country and through North America, it is also the largest land 
mass. A lot of the focus needs to be on land-based sources of 
pollution.
    This Administration believes, and I believe Congress, the 
Majority in Congress understands the importance of working with 
local landowners, local governments, States and others to 
reduce the amount of nutrients and sediments that are the 
number one problem challenging the Chesapeake Bay. So we think 
it is very important to adapt, to understand that we need to 
get smarter and innovate our approaches to stormwater and non-
point source pollution.
    I mentioned July 14th as an important date because that was 
the date in which there was a very well-attended public hearing 
session in Annapolis that USDA held on the monies in the new 
Farm Bill that will be directly targeted towards progress in 
the Chesapeake Bay. We think that is a critically important 
component.
    I think another important effort, a challenge ahead, as EPA 
brings to the table its Clean Water Act tools, is the Total 
Maximum Daily Loads Program. We and our partners are working 
towards the development of a TMDL. Legally, we have until 2011, 
but we are all shooting hard for accelerating completion of a 
massive, complex but important and timely TMDL by the end of 
2010.
    Madam Chair, climate change is also an important subject. I 
look forward to discussing it with you and how we, as a Federal 
agency, and others can work together to adapt our efforts and 
programs in a time of climate change.
    The last thing I would say, Madam Chair, is that we 
appreciate the attention. Mr. Lape and I will be happy to 
respond to questions that you have, and your colleagues, 
throughout the hearing.
    Thank you.
    Ms. Johnson. Thank you very much.
    Ms. Mittal. Madam Chairwoman and Members of the 
Subcommittee, thank you for inviting us to participate in your 
hearing on the Chesapeake Bay.
    As you mentioned, restoring the health of the Bay is a 
complex and difficult endeavor that has been ongoing for 
several decades. Federal, State and other partners have 
contributed billions of dollars for restoring the Bay, and yet 
a healthy Bay remains an elusive goal.
    In October, 2005, we issued a report on the restoration 
effort and identified a number of concerns that we concluded 
were undermining the success of the Bay Program. To address 
these concerns, we recommended that the Bay Program implement 
six actions. After our report was issued, Congress also 
directed the Bay Program to implement all of our 
recommendations and develop a realistic action plan.
    My testimony will summarize the concerns that we raised in 
2005, the recommendations that we made to address these 
concerns and our assessment of the Bay Program's actions to 
date.
    In 2005, we reported that the Bay Program had established 
over 100 individual measures to assess progress in meeting 
certain restoration commitments and to support program 
decisionmaking. However, the Bay Program did not have an 
integrated approach to determine what these individual measures 
meant in terms of the overall health of the Bay and restoration 
progress.
    We recommended that the program develop such an integrated 
approach.
    In response to our recommendation, the Bay Program has 
integrated its key measures into three broad indices of Bay 
health and five broad indices of restoration progress. We 
believe that these new indices will allow the Bay Program to 
provide better overall information about the Bay's health and 
restoration progress.
    In 2005, we also found that the Bay's reports did not 
provide an effective or credible assessment of the Bay's 
current health status. This is because the reports focused on 
trends in individual species and pollutants, they tended to 
downplay the deteriorated conditions of the Bay, and they were 
not subject to an independent review process.
    We recommended that the reporting process should be 
modified in three ways: First, it should include an assessment 
of the key ecological attributes that reflect the Bay's health. 
Second, it should separately report on the health of the Bay 
and on management actions. And, third, it should be subject to 
an independent review process.
    In response to our recommendations, the Bay Program has 
revised its annual reporting process and is now using 13 key 
ecological attributes to report on the Bay's health. It is also 
using a new reporting format that distinguishes between 
indicators of the Bay's health and restoration effort 
activities.
    We believe that these changes will significantly improve 
the clarity of the Bay's reports. However, we remain concerned 
that the Bay Program has not taken adequate steps to establish 
an independent review process, and therefore this 
recommendation still needs additional attention.
    Finally, in 2005, we reported that the Bay Program did not 
have a comprehensive, coordinated implementation strategy that 
would allow it to strategically target limited resources to the 
most effective restoration activities. We also found that some 
program planning documents were inconsistent with each other 
and some were perceived to be unachievable by the partners.
    We concluded that this large and difficult restoration 
project could not be effectively managed and coordinated 
without a realistic strategy that unified all of its planning 
documents and targeted its limited resources to the most 
effective restoration activities.
    In response to our recommendations, the Bay Program has 
taken several actions such as developing a strategic framework 
that articulates how it will pursue and measure progress toward 
achieving its goals. Although these actions are positive steps 
in the right direction, we believe that additional actions such 
as identifying resources and assigning accountability to 
partners for implementing the strategy are still needed.
    In addition, the program still needs to identify and 
clearly link a comprehensive set of priority activities to each 
of the newly established annual targets so that limited 
resources are focused on those activities that provide the 
greatest environmental benefit.
    In closing, Madam Chairwoman, in the three years since our 
report was issued, the Bay Program has made significant 
improvements to address the deficiencies that we had 
identified. However, additional steps are still needed to 
ensure that the program continues to move forward in the most 
cost-effective and well-coordinated manner possible.
    This concludes my prepared statement. I would be happy to 
address any questions that you have.
    Ms. Johnson. Thank you very much.
    I misread this agenda here, and I thought that all of you 
were accompanying Mr. Grumbles.
    I will now hear from Mr. Najjum.
    Mr. Najjum. Thank you. Good afternoon, Madam Chairwoman and 
Members of the Subcommittee.
    I am Wade Najjum. I am the Assistant Inspector General for 
Program Evaluation with the Office of Inspector General at the 
Environmental Protection Agency. I am pleased to be here today 
to discuss the OIG's evaluation of EPA's role in helping to 
clean up the Chesapeake Bay. We began our reviews in response 
to a request from Senator Barbara Mikulski of Maryland.
    EPA plays multiple roles in the Bay watershed including 
overseeing the State's implementation of the Clean Water Act, 
issuing and renewing permits for point sources, and ensuring 
compliance with those permits. EPA also has direct 
implementation responsibility for issuing and monitoring 
permits to the District of Columbia. However, EPA's principal 
role in promoting water quality goals for the Bay is the 
Chesapeake Bay Program. Congress charged EPA's Chesapeake Bay 
Program Office with the responsibility to coordinate cleanup 
efforts with other Federal agencies and State and local 
governments. The Program Office was also given the 
responsibility to report to Congress on the progress in 
cleaning up the Bay. We conducted reviews focused on the 
Chesapeake Bay Program's efforts to reduce nutrients and 
sediments into the Bay.
    We issued four major reports: agriculture, air deposition, 
developing land, and wastewater treatment facilities. In each 
area, we found that the Bay partners had accomplished some 
noteworthy achievements, but achieving the Chesapeake Bay water 
quality goals is in serious jeopardy. The Bay remains degraded 
and, at the current rate of progress the Bay will remain 
impaired for decades.
    In the individual reports, we concluded that significant 
challenges the Bay partners faced meeting their cleanup goals 
were increasing implementation of agricultural conservation 
practices, managing land development, seeking greater 
reductions in air emissions and upgrading wastewater treatment 
facilities.
    Surmounting these challenges requires action by States, 
local governments, watershed organizations and Federal 
agencies. EPA's principal goal is to facilitate and motivate 
these other key stakeholders to take the necessary steps, many 
of which will be expensive and difficult.
    A key task for EPA will be to provide Congress and Bay 
citizens with a realistic picture of what it will take to clean 
up the Bay, challenges and obstacles, and a realistic time 
frame for when the water quality goals will be achieved. 
Providing sound information to decision makers and stakeholders 
about progress and costs will allow them to make decisions 
about whether to take the steps needed to restore the Bay.
    We concluded that EPA can do more to assist its partners 
and to improve its communication with Congress and residents of 
the Bay watershed. While implementing the OIG's recommendations 
will be helpful, much more is needed.
    The OIG considers the Chesapeake Bay Program to be a key 
management challenge for EPA. Management challenges are defined 
as a lack of capability derived from internally or externally 
imposed constraints that prevent an organization from reacting 
effectively to a changing environment.
    In this case, we believe EPA lacks authorities, resources, 
and tools needed to address the challenges posed by 
agricultural runoff, new development, air pollution, and 
wastewater treatment upgrades.
    Meeting the various challenges facing the Bay will require 
a fundamental reexamination of current approaches and 
strategies used by EPA and its partners at the Federal, State, 
and local levels. For example, the Federal Government needs to 
establish a coherent national policy that helps agricultural 
producers be protective of water quality while remaining 
profitable. Local communities will need to incorporate broader 
concerns when deciding how to develop.
    Given its limited financial resources and regulatory 
authority, EPA's greatest role will be in facilitating and 
motivating States and local governments and watershed groups to 
address the challenges and consider the sacrifices that will be 
required.
    EPA also needs to more clearly communicate to its partners 
and Congress the extent of the challenges and chart a realistic 
path for achieving and sustaining water quality goals.
    Lastly, because the Chesapeake Bay Program is at the 
forefront of watershed restoration, finding successful 
solutions to cleaning up the Bay is important to estuaries 
across the Country experiencing similar challenges.
    Thank you for inviting me to testify before you today. I 
would be pleased to answer any questions the Subcommittee may 
have.
    Ms. Johnson. Thank you very much.
    I would like to ask you this question. In view of the EPA's 
OIG, what are the top four challenges that EPA and the 
Chesapeake Bay Program face in restoring the Bay?
    Mr. Najjum. The top four challenges are going to be the 
agricultural runoff, the new developments, the wastewater 
management--stormwater in particular would be one--and air 
deposition. Those are the four major challenges that we view 
that they are going to be facing in the future.
    Ms. Johnson. Mr. Grumbles, would you respond as well to 
these points?
    Mr. Grumbles. Well, we appreciate the work of the Inspector 
General. We agreed with their recommendations on challenges in 
areas.
    We are committed to focusing on innovative approaches to 
development and agriculture, working with our partners, not 
just in the Federal Government but State and local government. 
Also, atmospheric deposition, not losing sight of the fact that 
it is not just what comes off the land, it is also what falls 
from the sky.
    And so, we are very concerned about the recent judicial 
decision overturning the Clean Air Interstate Rule. So we think 
one of the big challenges is how do we, as a Federal 
Government, respond to that court case because we were 
estimating eight million pounds of nitrogen loadings a year 
that would be prevented and reduced from getting into the 
Chesapeake Bay through that rule.
    It underscores that using Clean Air Act authorities as well 
as authorities to manage develop and use best management 
practices for agriculture are key challenges for us and others 
in this effort.
    Ms. Johnson. Do you currently have the tools to address 
these four issues?
    Mr. Grumbles. Well, let me answer it this way. Under the 
Clean Water Act, we have a significant array of regulatory 
tools.
    We are about to embark on one of the most unprecedented 
efforts here, and that is to develop a Total Maximum Daily Load 
for this complex, large ecosystem. So we are going to be 
focusing on that, and we will be learning along the way how 
adequate the tools are using the Clean Water Act TMDL Program.
    I know that we need to rely on tools and authorities 
outside of the Clean Water Act, Madam Chair, which is the point 
between the Department of Transportation and USDA and their 
authorities and our Air Office. We need to do more to remember 
that it is not just from the land. It is also nitrogen and 
nutrient loadings from atmospheric deposition.
    We also think it is very important, a critical part of this 
whole discussion. The greatest risk is for policy makers to 
assume that any one entity is the one that is going to solve 
the problem or any one level of government.
    The key here is to recognize that while we at the EPA have 
a critically important role in facilitating and also using our 
regulatory tools and our financial tools, so much of the 
implementation will need to occur at the local level and at the 
State level.
    As the States are showing, they are moving forward. They 
are developing the numeric criteria for nitrogen and 
phosphorus. They are probing these innovative approaches for 
water quality training. They are showing some leadership too.
    So we think it is important to use the tools we have and to 
work with Congress on innovative approaches.
    The one thing I will say about some important additional 
legislative action we think is critical to this effort in the 
Chesapeake Bay and in other great waters across the Country is 
to recognize that it is not just the population growth or the 
amount of pavement that can impede on sustainable management. 
It is also the need for innovative financing.
    That is why we would urge the Congress, not just in the 
context of reauthorization of the Clean Water State Revolving 
Funds, but beyond that, to amend the code, the tax code to 
remove the artificial limit on private activity bonds, to 
embrace these water enterprise bonds as a way to bring in 
millions and billions of dollars in new money for aging 
infrastructure, so we can reduce sewer overflows which also is 
a significant threat to the Chesapeake Bay.
    Ms. Johnson. Thank you.
    Could you please provide this Subcommittee with some 
assurance or substantive way to show your activity and the 
results of it in this fashion, in addressing the four issues?
    Mr. Grumbles. Absolutely, Congresswoman.
    In addition to just the EPA responding to show collective 
accountability for our response to the Inspector General's 
observations and recommendations, we also think a key part of 
this July 14th delivery to Congress of a Chesapeake Action Plan 
is that EPA and our partners are signing up to demonstrate 
greater accountability and to develop annual operating plans so 
that Congress and others can track the progress or the lack of 
progress if the case may be.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair. I apologize for being 
late. I had a bill on the Floor that I had to be over speaking 
about.
    Mr. Grumbles, can you tell us what you feel like are the 
greatest accomplishments of the program and, on the other side, 
where have our challenges been? What have the weaknesses been 
over the last 20 years?
    Mr. Grumbles. One of the greatest accomplishments is that 
the Chesapeake Bay Program, EPA and its partners have developed 
world class science for ecosystem restoration and protection, 
the monitoring and the modeling and really understanding where 
the challenges are. That has been one of the greatest 
accomplishments.
    But as we have learned, we are also not across the finish 
line on that front, and we need to adapt and to continue to 
improve our efforts on monitoring and modeling to measure for 
progress.
    So, on the science fronts, that is one of the greatest 
accomplishments.
    On the governance front, I think it is setting an example 
for the rest of the Country and for the world on collaborative 
approaches to large ecosystem efforts, large aquatic 
ecosystems. The Chesapeake Bay is the envy of many other large 
aquatic ecosystems around the Country in the sense of the 
people and the governance structures and the mechanisms that 
come into place.
    In terms of ecosystem health, I think the recovery of the 
rockfish, the striped bass is an important one. There are a lot 
of measures where we have seen progress.
    I think it is very important to conclude, however, to make 
the point that at times that progress is also at risk or it 
swings in a different direction, and we are not nearly as far 
as we need to be such as for submerged aquatic vegetation. We 
have made tremendous progress if you look at previous decades. 
But then again if you look at the current situation, we are not 
as close as we would like to be to meeting our goals.
    So I think we have made a lot of progress, but we all 
recognize--EPA would be the first to say, I think--that we have 
a lot of work ahead of us, and it is not all just on our 
shoulders. It is with our partners throughout the Chesapeake 
Bay watershed.
    Mr. Boozman. Thank you very much.
    Ms. Mittal, Mr. Grumbles says a lot has been done, but we 
are a little bit at risk of maybe falling back a little bit. I 
guess my question is what do you think it will take to get 
public officials, stakeholders and the general public truly 
committed to moving forward with the actions that we need to go 
ahead and clean up the Bay?
    Ms. Mittal. What we identified in 2005 was a lack of 
effective and credible reporting by the Bay Program. There was 
a tendency to present a rosier picture of the progress that had 
been made versus what had actually been made.
    I believe there is a valid reason for that. People were 
afraid that if they presented a really negative impression of 
the Bay's health, then they wouldn't get the support that they 
needed.
    But at the same time, you need to be able to present a 
credible picture. You can't have the Bay Program presenting a 
very positive image and then other groups coming out and 
presenting a very negative image.
    So I think that the progress that the Bay Program has made 
in the last three years will be very helpful in that regard. 
The reporting formats that they have revised will provide a 
much more credible assessment of the health of the Bay versus 
the management actions. The measures that they have developed, 
the integrated approach that they have developed will provide 
better overall information.
    So, again, it is restoring the credibility of the overall 
effort. That is what is really important.
    Mr. Boozman. Good. Thank you very much.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Madam Chairman.
    I want to compliment everyone in the room that may not be 
back next year. This is sort of a pre-eulogy to all of the work 
that you have done over the decades to help with the Chesapeake 
Bay.
    What I would like to ask each one of the witnesses: In a 
sincere way, a lot of people have done a lot of work on the 
Chesapeake Bay for many, many decades now and especially after 
the Bay Program was put into effect.
    They have worked hard to try to understand how to make 
water quality improve with this huge, massive bureaucracy where 
no one has to do what you tell them, where no one even has to 
follow your suggestions. I am talking about the State 
governments, local governments, the EPA with the exception of a 
few things like TMDLs and the Clean Water Act where it deals 
with point source pollution. It has been a very difficult 
struggle to match the science with the governance.
    I think perhaps, not to be overly optimistic, we have 
reached a point now where there is a sense of urgency, there is 
a sense of the depth of the science, and there is a sense of a 
collaborative government scheme that can implement the 
recommendations and especially at the local level.
    Perhaps our biggest problem now is education, that you get 
into the minds, into the neurons of the town council, the 
mayor, the county commissioners, the planning commission--all 
of those people--what it will take on one level to clean up 
their part of the Bay, whether it is Cooperstown, New York or 
down to Norfolk, Virginia.
    Then ideally, I guess if you got into every school room 
from K through 12 the essence of the ecology of the Chesapeake 
Bay watershed and its systems, then you would have more and 
more people who would have some understanding of what their 
impact on the Bay is other than just driving 60 miles an hour 
on Route 50 to get to Ocean City and you see the little sign 
there that says you are now exiting the Chesapeake Bay 
watershed. What does that mean?
    So part of this education, but I wanted to get to some 
specifics.
    In each of your testimonies, you talked about agriculture, 
wastewater, development and air emissions as key elements: 42 
percent, 20 percent, 16 percent, 22 percent and so on. That is 
the problem.
    Some innovative ways, as Ben has described, to begin 
implementing some of the science and the governance that we 
know need to happen, and Ms. Mittal made a comment about new 
authority for EPA.
    Mr. Najjum, new authority for EPA, could you be a little 
bit more specific about where that authority would come from as 
far as new legislation or Federal statute and how would it deal 
with agriculture, how would it deal with wastewater treatment 
plants, how would it deal with development and then how would 
it deal with air emissions?
    These are all significant contributors to the degradation 
of the Bay.
    Mr. Najjum. Yes, sir. I believe what we said was EPA 
doesn't have the authority to deal with those.
    The question of new authorities, we have discussed amongst 
ourselves quite a bit, is that the local governments have those 
authorities. The State governments have those authorities. The 
Federal Government, the U.S. Department of Agriculture in some 
cases has those authorities to deal with different elements of 
those problems.
    We don't take a position on whose authority you would take 
away to give it to EPA in order to solve that problem. If you 
are going to deal with a local development problem in the 
watershed, the question is are you willing to take authority 
away from local governments and give it to EPA? Those are 
political decisions.
    Mr. Gilchrest. Are you saying not only EPA needs new 
authorities, but each level of government needs new 
authorities?
    Mr. Najjum. No. What we are saying is each level of 
government in its own right has some authorities. At the county 
level, for example, they do the local zoning, development, and 
what not. Smart development, I think you mentioned earlier, is 
an area that we do better at as the Bay Program Office reaches 
out and educates people on what they need to do.
    But in terms of new authority for EPA, we don't see a way 
that you would give EPA authority over local zoning without 
taking that away from an existing body politic.
    Mr. Gilchrest. So the concept of new authority that you 
mentioned was a question mark.
    Mr. Najjum. Yes, and we believe that is a political 
decision up to the Congress, the States, and the local 
governments as to what authorities that you would give to EPA.
    Mr. Gilchrest. Just one quick follow-up, Madam Chairman, 
for Ben on that question.
    Ben, do you see under the present regime, the present 
program and your present recommendations, do you think EPA 
needs any additional authority as far a cleanup is concerned?
    Mr. Grumbles. Do you want to take that, Jeff? No?
    Congressman, first of all, thank you for the work you have 
done for the Chesapeake Bay over the years. I just want to make 
that statement on your leadership.
    Mr. Gilchrest. Thanks, Ben.
    Mr. Grumbles. In answer to your question, our current view, 
our current approach is we have ample regulatory authority 
under the Clean Water Act. From our position, as a general 
matter, government that is most closely located to those who 
are being governed works most effectively.
    However, we do think it is important, when you are looking 
at multi-jurisdictional trans-boundary issues, there needs to 
be a convener of stature. There needs to be a mechanism. We 
think that is preferable to lawsuits, to have some type of 
facilitated effort.
    That is why we have been investing in the partnership with 
States and local authorities on land use decisions under the 
Clean Water Act rather than seeking to use or to petition 
Congress to have Federal land use authority or regulating non-
point source pollution. That would be a fundamental significant 
change.
    We don't think you need to go that far, but we do feel it 
is important to have clear authority and to convene meetings, 
to have partnerships where we assign responsibility.
    We are, Congressman, encouraged about the Chesapeake Action 
Plan. We really do think it will embrace collective 
accountability. As we develop the TMDL approach, we think that 
is also going to bring more folks to the table.
    Mr. Gilchrest. Would that be a convener of statutes, the 
process you have done with TMDL?
    Mr. Grumbles. It doesn't always have to be EPA. As I have 
seen over the years, it can be a local leader or it can be a 
governor or someone else. But certainly when it involves 
multiple jurisdictions, there needs to be someone who can be a 
facilitator and not represent just one perspective.
    And, we do think it is important for Congress to 
continually look at the existing authorities under the Clean 
Water Act and also under other programs to make sure that we 
all move towards a more integrated multimedia approach.
    As I emphasized in the testimony, we are concerned about 
the loss of an important regulatory tool, the Clean Air 
Interstate Rule.
    We also know that it is important to continuously look at 
the stormwater program. We have charged the National Academy of 
Sciences with a comprehensive assessment, asked them to do that 
of our stormwater program for municipal and industrial 
stormwater because we see that as one of the important 
challenges.
    We also recognize that through the Farm Bill and our 
through of memorandum of agreement that we have entered into 
with USDA, that we and other agencies have a lot of important 
work ahead of us because one of the greatest challenges is in 
the agricultural community. Most of the work is going to happen 
at the local level or the state level with the private sector, 
the land owners, but the Federal agencies are in a position to 
provide incentives or to remove barriers.
    So I think that we are not, at this point, seeking changes 
to the Clean Water Act specifically for the Chesapeake Bay in 
the context of new authorities, but we do think it is important 
to update the financing through water enterprise bonds and 
through market-based approaches.
    Wetlands protection, we think is important to use 
mitigation banks and other approaches to make sure that we are 
making progress towards no net loss and ultimately towards 
gaining wetlands rather than losing them.
    Mr. Gilchrest. Thank you, Ben.
    Thank you, Madam Chairman from Montgomery County.
    Ms. Edwards. [Presiding.] Thank you. From Prince Georges 
County.
    Mr. Gilchrest. Prince Georges County.
    Ms. Edwards. I do want to echo my thanks too for the 
leadership of Mr. Gilchrest in Maryland, and I only hope that 
even on this side of the aisle I will continue that leadership 
and advocacy for the Bay. So I appreciate that.
    I have been on the Bay and throughout the watershed for the 
last 30 years as fisher person and recreational user, and I 
have seen the degradation of the Bay firsthand.
    My concern is whether we know all we need to know about the 
levels of pollution and their impact on the Bay and throughout 
the watershed, and so I was a little troubled, Mr. Najjum, on 
Monday to read an AP news story about the EPA's imposition of 
what amounts to a gag order directing pollution enforcement 
officials not to talk with congressional investigators, 
reporters or even the Office of the Inspector General regarding 
enforcement activities.
    In fact, and I will read you directly, the memo states: 
``If you are contacted directly by the IG's Office or GAO 
requesting information of any kind, please do not respond to 
questions or make any statements.''
    It raises a question about whether there is the ability of 
enforcement officials to really be forthcoming about the 
environmental problems that we face.
    And so, Mr. Najjum, I am concerned about whether this is a 
change in your internal process with respect to direct contact 
between the EPA's Office of the Inspector General and how this 
change in process will affect your ability to provide truly 
independent investigations of the agency's performance in 
protecting our environment.
    Mr. Najjum. Well, first of all, the IG's position is that 
we always have complete and total access to Agency_
    Ms. Edwards. Can you speak up? I am sorry.
    Mr. Najjum. I am sorry. The IG's position is that we always 
have complete and total access to the agency's documents, 
people, and records. Anything that they have, under the IG Act, 
we have access to it. Where we have a problem with a denial of 
access, we immediately take action to deal with that.
    Now we have initiated two things. We are talking with OECA 
about their misunderstanding of the responsibilities of all 
government employees and officials have to talk to the IG when 
asked a question, and the language in their particular SOP. We 
have also initiated a project to look across EPA to make sure 
that this is an outlier of a problem, of a procedure. That it 
is not some generally accepted practice.
    Ms. Edwards. But does this raise a larger concern that the 
Administration might want to keep a tighter control over 
potentially damaging information especially about levels of 
pollution, and let's just use the Bay as an example, as we come 
to the finish line here about whether our Nation's 
environmental problems actually might be far more significant 
than we know?
    Mr. Najjum. Usually my experience has been that it is a 
product of the bureaucracy and the desire to control 
information rather than a planned ``we want to keep this 
information secret'' because at all times in my career a denial 
really doesn't take place until we get up to the senior level, 
the senior official of the agency--in this case the 
Administrator--who would have to be the person who would deny 
us access to any information because that is how we would 
pursue it and push it.
    In all cases I have ever been involved in when that is a 
sort of mid-level bureaucratic problem, that when we take it to 
a policy maker, a senior decision maker, the information is 
forthcoming because the next step after that is we would be 
coming to tell Congress about it.
    Ms. Edwards. Ms. Mittal, I wonder if you could comment 
because I am worried that maybe if your access to enforcement 
personnel is also restricted, that this policy as it is 
indicated in this memo, might affect GAO's ability to conduct 
independent investigations at the request of Congress.
    Ms. Mittal. Like the IG's Office, the GAO has extensive 
audit authority that has been provided to us by the Congress. 
In a situation where we were not getting access to either the 
people or the documents that we needed, we would look at the 
situation on a case by case basis. We have a standard process 
that we follow and we would continue to elevate the situation 
until we got the information that we needed.
    Ms. Edwards. Thank you.
    Mr. Grumbles. Congresswoman, could I just add something on 
that?
    Ms. Edwards. Sure.
    Mr. Grumbles. I think it is important to say that in my 
experiences at the agency over the last six years, and I am not 
in the Office of Enforcement and Compliance Assurance, but I 
spend an enormous amount of time working with that office 
because they are an extremely important part of our efforts in 
the National Water Program and throughout the agency. I have 
seen continuously a concerted effort to provide as much access 
as possible and to be as responsive as possible to the IG 
responsibilities and inquiries and investigations as well as 
GAO.
    To bring it home here in the Chesapeake Bay, I would say 
that we have, certainly over the last several years at EPA, 
been very committed to and have delivered on that commitment by 
providing time and resources and access, and we have benefitted 
from that criticism and engagement with the IG and with the 
GAO.
    When it comes to enforcement, my position on it is it is 
extremely, as we talk about cooperative conservation and 
voluntary efforts, that we also use our regulatory enforcement 
tools when we need and when it is necessary. We have done that, 
and that has been with sewer overflow violations in the State 
of Maryland. It has been in other municipalities throughout the 
Chesapeake Bay.
    So, enforcement and the oversight from IG and GAO are all 
important to the agency as I believe we are fully committed to 
working with them as full partners in the effort.
    Ms. Edwards. Let me just be clear. Is this then a change in 
internal policy or has this always been the policy?
    Mr. Najjum. As far as OECA's policy, the SOP that was 
published in the paper, I think that is probably something new, 
which is why it was raised up as an issue.
    So the IG's policy is, has been and--unless Congress 
changes the IG Act--always will be that we have complete access 
to the agency's personnel and records.
    It is usually a bad thing to tell somebody not to speak to 
the IG and give out information. It is usually not well thought 
through if anybody has done that.
    Ms. Edwards. Thank you. So it is a new policy.
    Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Madam Chairwoman.
    I am not going to have a lot of questions because I didn't 
get to hear much of the testimony due to other meetings, but I 
would like to make a few comments and maybe ask a question.
    I read in the National Journal a few weeks ago that two-
thirds of the counties in the U.S. are losing population, yet 
Fortune Magazine in 2000 said the Knoxville Metropolitan Area, 
which I represent, was the most popular place to move to in the 
whole Country based on the number moving in relation to the 
fewest moving out.
    So I represent an area of very fast growth. In fact, most 
of the people that have moved in, in the last 15 or 20 years, I 
think wish I could put up walls and keep anybody else out.
    Unfortunately, we have taught young people that the words, 
growth and development, are bad. In fact, it is almost always 
written in a headline in the media that growth and development 
are written in a negative way. But you have to have some growth 
to have a good economy and to have jobs for young people when 
they get out of college.
    Even people who want to work for the government, such as 
teachers and so forth, a lot of people want to do that. They 
better hope that we have a good business climate and some 
growth and some development or there won't be the taxes to pay 
for all these government employees and government jobs.
    What I am getting at, most water regulators seem to have 
never been in business and don't really have much sympathy for 
or understanding of people who have been.
    Most of you know that or have read the statistic that 80 
percent of small businesses fail within the first 5 years. It 
is a heartbreaking thing.
    Then I read in our briefing here that the big problem of 
the Chesapeake Bay is the growth. I am sure, though, that there 
are some counties in this big region that are losing population 
as some counties are.
    I hope that we don't get the idea that we just need to stop 
all growth or we are not going to be able to support all these 
government activities and the schools and so forth that 
everybody wants.
    Then I know in my area, like when I grew up in Knoxville, 
even in Knox County, the whole surrounding all of Knoxville 
were farms. Now the farms are all gone, and most people think 
that is a sad thing.
    But I guess the point I am making, we have this old 
historic theater in downtown Knoxville, the Tennessee Theatre, 
and I have gotten in a lot of money to help save that. You want 
to save the crown jewels, but you don't want to save every 
rundown dilapidated building out there. You want to have some 
development. A lot of development is good.
    I put together a conference a year ago on growth so that we 
could try to figure out how to handle growth but not be 
overwhelmed by it.
    Mr. Najjum, I notice that you said that the number one 
problem was runoff from animal feeding operations or from 
agriculture. Yet, if you are having all this growth, I am 
wondering if it is not like in Knoxville where the farms.
    I would imagine with all your growth. I mean people have 
gone berserk over land that is on the water. They pay extremely 
high prices for it. Is that not doing what happened in East 
Tennessee? Is that not doing away with many of the farms or a 
lot of the farms?
    It looks like to me like you would have less agricultural 
runoff than you had a few years ago.
    Mr. Najjum. Well, I would say logically that is probably 
true as you develop farmland into housing. Most of our work is 
based on models that we looked at.
    So, in terms of does one balance out the other, I think 
they are perhaps two sides of the same coin. There are 
different runoffs that go into the Bay.
    Farmers don't want to lose their soil in the Bay either. 
That is another issue that when you look at agriculture and you 
say it is runoff, agriculture doesn't particularly care to have 
their soil run into the Bay. It is just a byproduct.
    In answer to your question, I think it would better be 
directed at the Chesapeake Bay Program Office to see what they 
feel the ratio there would be.
    Mr. Duncan. Do we need more water resource work in the 
counties where there is fast growth which I assume would be the 
counties that have the waterfront property or property near the 
water?
    I would assume that based on that statistic that two-thirds 
of the counties in the U.S. are losing population that you 
still have some small towns and rural areas that are having 
trouble holding on even in the Chesapeake Bay Region. Are all 
the counties in this area growing by leaps and bounds or what 
is the situation?
    Mr. Grumbles?
    Mr. Grumbles. Congressman, I know there are many witnesses 
behind me who are just jumping, chomping at the bit to be able 
to respond to that question.
    Mr. Duncan. Sure.
    Mr. Grumbles. From an EPA perspective, it is important to 
keep in mind that agricultural lands and forests provide an 
important buffer and can be a very sustainable and are a 
critically important part of the overall health of the 
Chesapeake Bay watershed.
    One of the greatest challenges right now and important 
challenges for us ahead is it is not to say no to growth. It is 
to make smart decisions and use technologies and tools for 
sustainable growth.
    We are not going to be. From an EPA standpoint, it is not 
our role to decide those local decisions. The Local Government 
Advisory Committee to the Chesapeake Bay Program is key to it.
    But what we think is really important is using the new 
technologies such as porous pavement, pavement that drinks, 
working with DOT on green highways and infrastructure systems 
that allow communities to grow in a more sustainable way, that 
don't have such impacts on or take away from the resiliency of 
the Bay.
    What the Bay partners have to all recognize and which do 
recognize, including EPA, is that a sustainable way forward 
isn't just to say no to local growth. It is also an 
opportunity. For us, whether it is in the Chesapeake Bay or in 
urbanized areas in Tennessee, one of the great challenges is 
the pavement.
    One of the biggest statistics that we find, which is 
telling, is that between 1990 and 2000 the population in this 
watershed grew by 8 percent, but the amount of impervious 
surfaces grew by 41 percent. That, to us, symbolizes something 
that is probably not sustainable. There ought to be other 
approaches that local communities use.
    Mr. Duncan. Let me just close by saying this. I think the 
key words in all of this are balance and common sense
    Sometimes when people say smart growth and sustainable 
growth--I am not saying you, but I am saying some people when 
they say that--they basically want to stop all growth.
    Well, what that does, that causes even small homes to go to 
a million, two million dollars like we see even in this area 
where families can't afford homes, and so more and more people 
are jammed into apartments and townhouses. That is not good, 
and we destroy a big part of the American Dream.
    Thank you, Madam Chairwoman.
    Ms. Edwards. Thank you.
    Mr. Gilchrest, do you have additional questions?
    Mr. Gilchrest. Just a few, Madam Chairman, thank you very 
much. Just a quick response to my colleague from Tennessee.
    I will say in the Chesapeake Watershed, from the testimony 
that we have heard today and from the panel that we will hear 
from, we will probably conclude, based on my analysis of your 
testimony, 58 percent of the problem with an overload of 
nutrients degrading the Chesapeake Bay comes from non-
agricultural sources.
    That is development, wastewater treatment plants and air 
pollution. That is 20 percent from wastewater treatment plants, 
16 percent from development and 22 percent from air emissions.
    So, in my particular area, we still have our land is still 
carpeted with farms. But because it is dotted with fishing 
villages, those fishermen who catch in their small business--
and it is vital--in those tidal estuaries, that is where the 
fish they catch are spawned.
    So, with growth that is not smart in the wetland areas, you 
take away areas that the fish will spawn in. That is a problem. 
It was a problem for rockfish, and it still is a problem for 
the commercial fishermen in the Atlantic and Pacific Oceans 
because of the tidal areas and the estuary areas.
    If the growth is not compatible with nature's design to 
spawn and sustain the fishery population, those small 
businesses go out of business.
    I would also say the DelMarVa Peninsula, in the same way 
Florida was targeted by national developers in the 1950s, the 
DelMarVa Peninsula right now and much of the Chesapeake Bay 
watershed are increasing in developing, not decreasing.
    So what we are trying to do with this program and EPA, the 
States and especially local governments is try to get everybody 
in sync with how we can improve water quality in the Chesapeake 
Bay at the same sustain a dynamic economy.
    In my area, our economy has been based on agriculture and 
fishing and tourism for 400 years. If there is anybody from 
Staten Island, no offense intended, but if we turn into Staten 
Island, then our economy is not sustainable from the land or 
natural resources. It is just a matter of how we can figure 
this out and the best method.
    The question I have, though, for my good friend from 
Tennessee, I am probing when I ask this question.
    The Farm Bill that you mentioned, Ben, has increasingly 
improved in its targeting for creating sustainable agriculture, 
and it can be ecologically compatible with the region. They do 
that with targeting specific farm fields with specific dollars 
with specific results, and these are fairly well defined in a 
whole range of ways.
    Now is that same approach in a big picture situation 
possible for urban areas, suburban areas and rural towns, rural 
areas?
    You take the farm field. We have agro-ecology in Maryland. 
Don Boesch certainly, from the University of Maryland, has done 
a great deal of work with ag runoff and how to target those 
things.
    Can you take the concept of what we do with agriculture and 
place that in a more populated area? Here is this area. Here is 
the stormwater runoff. Here is the sewage treatment plants. 
Here is what we think we can do.
    Anybody want to take that?
    Mr. Grumbles. I would just start by saying we are very 
proud of our partnership with USDA in moving further along in 
the targeting of resources towards the areas that need it. When 
it comes to stewardship, environmental stewardship based on 
priority needs, that targeting principle is an important one.
    I think we need to continue to do more work. We are working 
with USDA on that. They are very willing and open partners on 
that.
    When it comes to urban or suburban areas, for us, we have 
been embracing that principle for years now under the Clean 
Water Act in two ways.
    One is when it comes to non-point source pollution. We have 
the Section 319 plans, the nutrient management plans where we 
provide the grants to the States, and the States are to develop 
nutrient management programs to target needs in priority areas.
    When it comes to water infrastructure needs, what we do is 
we have used the State Revolving Funds and the mechanism in the 
Clean Water Act that says each State is to develop an intended 
use plan to prioritize the use of those limited resources and 
leverage them to get more bang out of that buck. We think that 
an important part of that, certainly an important criterion in 
that intended use plan and that targeting is environmental need 
and the need within a shed.
    But it certainly has been an EPA view both in this 
Administration and prior that the State funds. It is really the 
State that develops that intended use plan and based on the 
priorities unless--unless there is a Clean Water Act violation 
that is occurring. Then that leaps. That is placed higher on 
the list of targeting for funding.
    Mr. Gilchrest. A lot of work to be done.
    I will say my closing comment. There are areas on the 
Eastern Shore where, for example, farming practices have 
changed, where there have been buffers put in, where there have 
been forested buffers put in.
    In a very short period of time, water clarity comes back. 
The SAVs come back. The wild rice comes back. The American 
lotus blossoms come back. It is pretty extraordinary.
    Mr. Grumbles. Under Jeff Lape's leadership in terms of the 
EPA's lead person on the Chesapeake Action Plan, we really do 
think there is great hope there because a specific purpose of 
the action plan with the operating plans and adaptive 
management is to help target resources and actions of the 
various players in the Chesapeake Bay towards those greater 
needs based on the overall Chesapeake Bay goals.
    So the point about targeting, that is the name of the game, 
and we know we have to do more at it and be better at it. We 
think the action plan is going to help throughout the coming 
years.
    Mr. Gilchrest. Thank you, Ben.
    Thank you, Madam Chairman.
    Ms. Edwards. Thank you very much and thank you to our 
second panel.
    I would like to take this time to welcome our third and 
final panel. Our first witness is Dr. Donald Boesch from the 
University of Maryland Center for Environmental Science in 
Cambridge, Maryland.
    Next is Mr. Charles Fox from the Pew Environment Group. Mr. 
Fox is a former EPA Assistant Administrator for Water.
    Mr. Roy Hoagland joins us. He is the Vice President of 
Environmental Protection and Restoration at the Chesapeake Bay 
Foundation in Annapolis, Maryland.
    Mr. William Matuszeski will then testify, and he was 
Director of the Chesapeake Bay Program from 1991 to 2001.
    And, lastly, Mr. Tayloe Murphy will follow. He is a former 
member of the Virginia House of Delegates and has served also 
as a Secretary of Natural Resources in the Commonwealth of 
Virginia.
    Our final witness--my apologies--on the panel is Ms. Ann 
Swanson. Ms. Swanson is the Executive Director of the 
Chesapeake Bay Commission in Annapolis, Maryland.
    To our witnesses, your full statements will be placed in 
the record, and we ask that you try to limit your testimony to 
about five minutes as a courtesy to the other witnesses. Again, 
we will proceed in the order in which the witnesses are listed 
in the call of the hearing.
    Dr. Boesch.

 TESTIMONY OF DONALD F. BOESCH, PH.D., UNIVERSITY OF MARYLAND 
   CENTER FOR ENVIRONMENTAL SCIENCE; J. CHARLES FOX, SENIOR 
OFFICER, PEW ENVIRONMENT GROUP; ROY HOAGLAND, VICE PRESIDENT OF 
   ENVIRONMENTAL PROTECTION AND RESTORATION, CHESAPEAKE BAY 
  FOUNDATION; WILLIAM MATUSZESKI, FORMER DIRECTOR, 1991-2001, 
  CHESAPEAKE BAY PROGRAM OFFICE, UNITED STATES ENVIRONMENTAL 
  PROTECTION AGENCY; W. TAYLOE MURPHY, JR., ATTORNEY AT LAW, 
 WARSAW, VIRGINIA; AND ANN PESIRI SWANSON, EXECUTIVE DIRECTOR, 
                   CHESAPEAKE BAY COMMISSION

    Mr. Boesch. Thank you very much, Madam Chair.
    I am Donald Boesch. I am President of the University of 
Maryland Center for Environmental Science.
    I want to join everyone in acknowledging the great 
leadership of Mr. Gilchrest. He is my Congressman, and so I see 
a silver lining. We get him back on the Shore.
    I also can't let go unnoticed, Madam Chair, your arrival 
here as one of our representatives from Maryland, and it seems 
like you are on a fast track because you in the Chairmanship 
and are Chair-ready.
    I spent nearly 30 years of my career either studying, 
myself, or managing people in programs that study the 
Chesapeake Bay. But I have also extensive experience in working 
in scientific guidance of restoration of other great ecosystems 
such as the Everglades, the Mississippi Delta and the Baltic 
Sea.
    I am going to go right to the issues identified, the three 
challenges identified in the Office of Inspector General's 
report and offer some comments, and suggestions hopefully 
appropriate at the Federal level of what Congress could do.
    You know one of the things I observed in reading that 
report is it talked about these as new and emerging issues. 
That is the urban stormwater issue, the air issue and the 
agricultural issues. These are not. These are recalcitrant, 
vexing issues which have been around for a long time.
    With respect to uncontrolled land development, as you know, 
recent studies and science have increasingly showed that 
landscapes are very sensitive to paving them over through 
increasing runoff. Increases in volume and intensity erode 
streams and diminish the capacity of our natural systems to 
absorb waste, including nutrients and sediments.
    Additional research is actually showing that even very low 
density development close to the tidal waters has some 
undesirable effects on the shallow water ecology of the 
estuary.
    Local government, as has been pointed out, has the main 
responsibility for managing land use in our Country and in our 
States. The efforts that we are doing in Maryland, the State 
government, for example, to require consistency of 
comprehensive plans of local governments with the tributary 
strategies and the targets that have been agreed to among the 
States is one way that can help bring local government 
management in compliance with our commitments to restore the 
Bay.
    But I think Congress also has an important role moving 
forward.
    It was mentioned before regarding questions about 
authority. That EPA actually has a lot of authority it can 
exercise with respect to stormwater, various agricultural 
practices, animal waste as well as the atmosphere that could be 
implemented, I think, more aggressively.
    In addition to that, as we look forward, it is my view on 
this issue of growth that we are going to be confronted--we are 
already confronted--with major challenges ahead dealing with 
climate change and the need to reduce greenhouse gas emissions 
and to conserve costly energy. This gives us opportunities to 
think about how we authorize and fund transportation networks 
that can make us grow more smartly in the future.
    This is a big issue. So, in moving forward and dealing with 
climate change and energy conservation, I hope you keep in mind 
the environmental restoration of our Nation's waters, livable 
communities, those sorts of things as we solve these other 
large problems as well.
    With respect to limited implementation of agricultural 
conservation programs, I make the point that source reduction 
has made far less progress than we have in waste treatment 
because in municipal waste treatment we finally got to the 
point where we recognize that those responsible ought to pay 
for it. The polluter pays. So we now have major upgrades in 
Maryland and in Virginia and coming along in Pennsylvania.
    Agriculture has lagged. Over the last 20 years, the 
implementation of agricultural practices to reduce nutrient 
runoff has taken more or less of a ``don't ask, don't tell'' 
approach. That is, we have farmers sign up to do practices, but 
there is very little direct accountability for outcomes. I 
think we can no longer afford to do that.
    You in Congress have authorized major targeted programs in 
the Farm Bill dealing with the Chesapeake Bay watershed. Some 
$188 million is authorized. The States are also providing 
funds. For example, in Maryland this last year, the General 
Assembly enacted a trust fund dedicating up to $50 million a 
year for non-point source control. We have to employ these 
funds with rigorous accountability moving forward.
    Also, with respect to air quality, Congress and the 
national Government have a lot of authority with respect to 
controlling our air quality, and that has benefits for our 
great waters.
    The previous witnesses have talked about this idea of 
adaptive management. I think it is the way to go. It means that 
we have to really be very smart about how we apply the science 
that we have developed, to do the appropriate monitoring, to 
tie it tightly with models and to always perpetually ask 
questions about the effectiveness of the outcomes and always 
improve the practices. Hopefully, using the new strategy the 
Bay Program has identified, we can do this.
    In our own State, Madam Chair, as you are aware, Governor 
Martin O'Malley implemented when he took office last year, the 
BayStat Program, which is such a metric-based accountability 
program that is still a work in progress but is beginning to 
have real results.
    So, thank you very much for this opportunity.
    Ms. Edwards. Thank you.
    Mr. Fox.
    Mr. Fox. Thank you, Madam Chair. It is a real pleasure to 
see you in the Chairmanship.
    Mr. Gilchrest, I think I will have to divulge here as part 
of our going-aways to you that I have now, for all Members of 
the Committee, been to Mr. Gilchrest's house twice for what I 
think is best described as continuing education procedures. I 
hope I will still get invited back. Congressman, you have been 
a great leader.
    Today's witnesses have described the key challenges 
confronting the Chesapeake cleanup program. We would like to 
focus our brief oral remarks on ideas about ways forward. We 
are pleased that the Subcommittee and so many Members remain 
focused on improving the Bay's health.
    The Bay Program excels in ecological monitoring, modeling 
and goal-setting. It is arguably the most sophisticated well-
funded ecosystem restoration program in the world. However, Bay 
area governments have not yet succeeded in restoring water 
quality or in managing sprawling development patterns that 
characterize our region.
    We will focus on the water quality challenge because we 
believe it is the most fundamental problem impacting the Bay's 
health.
    The Bay Program is often described as a voluntary program. 
In some respects, that is true. However, the Bay Program 
operates within a suite of mandatory Federal and State laws, 
the most significant of which is the Federal Clean Water Act, 
obviously, a statute the subject of this Subcommittee's 
jurisdiction.
    The Act and its implementing regulations impart many 
obligations on governments and private entities to control 
pollution to the Chesapeake and its tributaries. Fundamentally, 
the Act requires EPA and the States to issue permits to all 
major sources of pollution.
    The Act further requires that these permits be sufficiently 
stringent to meet water quality standards. Unfortunately, as a 
practical matter, this is not happening.
    It is easy to get lost and overwhelmed when discussing the 
suite of challenges confronting the Chesapeake Bay. I find it 
helpful to frame these conversations in the context of the 
objectives of the Clean Water Act. Why is it that we are not 
meeting the Act's goals?
    Consider the Clean Air Act. Over the past 26 years, the 
aggregate emissions of the six principal air pollutants has 
declined by almost 50 percent. This achievement, while likely 
still not sufficient, has occurred despite more than a doubling 
of our Nation's GDP, a doubling of vehicle miles traveled and 
substantial increases in population and energy consumption.
    These statistics contrast sharply with the water pollution 
trends in the Chesapeake Bay over the same period. Why is that?
    Our Nation's air pollution control programs establish 
emission standards for virtually all sources, both large and 
small, including even household appliances and products in some 
regions. Cumulative air pollution loads are monitored with 
significant precision and, perhaps most importantly, the 
various control regimes are modified in clear and consistent 
ways based upon ambient monitoring data. If, for example, a 
region fails to meet standards, more stringent accountability 
mechanisms are applied.
    Water pollution control programs in the Chesapeake possess 
some but not all of these attributes. In the Chesapeake, we 
have developed sophisticated monitoring and goal-setting 
programs.
    However, we have not yet developed accountability systems 
that ensure controls on all major sources of pollution. This is 
particularly problematic for runoff pollution from municipal 
and agricultural sectors.
    Over the past decade, the Bay Program has defined in great 
detail the precise pollution control actions that are necessary 
to meet the Bay's water quality goals. The Bay Program has also 
developed relatively precise estimates of the costs of meeting 
these goals. In many ways, the Bay Program is in an enviable 
position compared to other large-scale restoration efforts 
around the world.
    We would suggest the Subcommittee and Bay area governments 
consider three possible ways forward:
    First, enforce current law. As a practical matter, EPA and 
the States could begin issuing permits to virtually all sources 
consistent with the precise practices defined by the Bay 
Program. This could be done in a number of creative ways to 
minimize burdens, reduce costs and assure timely implementation 
of the measures.
    Second, consider reauthorizing the Bay Program with 
explicit new accountability mechanisms to improve runoff 
pollution control from municipal and agricultural sectors. 
Again, there are many creative ways of accomplishing this 
including the use of watershed general permits, pollution 
trading schemes and other incentive-based systems. Ultimately, 
a reauthorization will have to provide a high degree of 
certainty of success within a relatively short period of time.
    And, third, consider establishing the regional financing 
authority to support a number of water quality priorities 
particularly those related to runoff pollution from 
agricultural areas. Ideally, such an authority would support 
both capital and operating expenses, and it would be structured 
in a way as to enhance accountability.
    Thank you, Madam Chair.
    Ms. Edwards. Thank you.
    Mr. Hoagland.
    Mr. Hoagland. Madam Chair, Mr. Boozman, Mr. Gilchrest, Mr. 
Platts, thank you for providing us the opportunity to present 
to you today.
    By the close of this hearing, you will have heard a lot of 
different perspectives on Bay restoration--everyone from 
government, State and Federal levels, to present and past 
Assistant Administrators for Water, an academician. I am here 
to present for you the NGO perspective from an organization 
that has worked for 40 plus years on Chesapeake Bay 
restoration.
    If I had one single word for you to take away with you 
today, that word would be change. It is time to change the way 
the Federal Government goes about restoring the Chesapeake Bay.
    In 1983, with the signing of the first agreement, the 
Federal Government assumed a role of cooperative partner with 
the Bay States. It reaffirmed that agreement in 1987 with a new 
agreement. They adopted a 1992 directive stating again their 
commitment.
    In 2000, the Federal Government once again assumed the role 
of cooperative partner with the signing of the Chesapeake 2000 
Agreement, an agreement that had a very specific nitrogen 
pollution reduction goal.
    In 2000, the nitrogen pollution entering the Chesapeake Bay 
was at 250 million pounds. In 2007, it was at 318 million 
pounds. We had obviously not achieved any of that reduction.
    Albert Einstein says the definition of insanity is doing 
the same thing over and over again, expecting a different 
result.
    We are insane if we keep allowing the Bay restoration 
efforts to be driven by what are considered to be purely 
voluntary agreements, and the cooperative role of the Federal 
Government needs to change from one which has assumed it was 
going to simply be positively and cooperatively working with 
other governments.
    The change that we are advocating is a change to the Clean 
Water Act for the Chesapeake Bay. We are advocating that you 
direct the Federal Government through EPA to take a 
significantly more aggressive role in requiring pollution 
reductions, pollution reductions that are necessary, by 
specifically requiring the cleanup tool which the EPA is now 
developing, the bay-wide TMDL, which contains accountability 
and enforceability measures.
    TMDL or Total Maximum Daily Load is a tool established 
under the Clean Water Act. It is the line of last defense. We 
adopt a TMDL when we have failed under our regulatory and non-
regulatory programs to keep our waters clean.
    The bay-wide TMDL will, by regulation, specify the amount 
of pollution that the Chesapeake Bay can receive. That is a 
good thing. It will change the voluntary agreement into a 
regulatory one, but it is not enough change.
    TMDLs across the United States have failed to accomplish 
pollution reductions and water quality improvements because EPA 
has failed to follow the clear intent of the Clean Water Act as 
well as its own guidance. It has allowed the development of 
TMDLs which lack accountability and enforceability, and we ask 
that you consider changing that for the Chesapeake Bay.
    Currently, the Act requires that the TMDL provide 
reasonable assurance that it will achieve the pollution levels 
it identifies. This concept is contained in the Act itself and 
in EPA's own guidelines.
    In the past, EPA has chosen to ignore this requirement. It 
has inserted boilerplate language in the TMDLs and then 
proceeded to ignore the clear intent and purpose of that 
language. By doing so, it has ignored the language and its 
guidance that it has gone through in 1991, 1997 and 2002.
    Reasonable assurance is a critical element of an effective 
TMDL. Without having that in the bay-wide TMDL, the TMDL will 
in fact be a mere paper exercise.
    We propose that you statutorily define reasonable assurance 
for the Chesapeake Bay region, directing EPA how it will 
develop, approve and administer the bay-wide TMDL. There is no 
doubt that this last line of defense will in fact determine 
whether we are or are not successful with the Chesapeake Bay 
restoration and the millions and millions of Federal dollars 
that have been invested in it.
    We urge you to take a look at this statute. Look at the 
Clean Water Act and, instead, make the TMDL a model, the bay-
wide TMDL a model for national restoration. In fact, as the 
Chairman said at the beginning of this meeting, develop a plan 
that will actually accomplish the cleanup of the Chesapeake 
Bay.
    Thank you.
    Ms. Edwards. Thank you.
    Mr. Matuszeski.
    Mr. Matuszeski. Thank you, Madam Chairwoman.
    My name is Bill Matuszeski. I was Director of the EPA 
Chesapeake Bay Program from 1991 to 2001.
    Thank you for the opportunity to provide you with my 
perspective.
    The sources of the problems of the Chesapeake have been 
identified. The solutions are well known and widely accepted to 
reduce nutrient and sediment loadings to the Bay and to manage 
its fisheries for sustainability.
    Loads have been estimated, reductions allocated. Tributary 
strategies have been completed. There is, frankly, little more 
we need to know about the Bay to know what action to take.
    The problem is that those required actions involve two 
words that public officials are loathe to use: taxes and 
regulation. The simple fact is that what needs to be done 
requires either public funds or the willingness to make others 
pay through regulation.
    In some areas, we see to have this point across. With 
respect to sewage treatment plants already under the regulatory 
control of the States and EPA, we have made great progress. 
Already user fees were in place.
    To their credit, Maryland and Virginia decided early on to 
deal with the equity issue of variable costs of upgrades by 
coming up with State funds as an equalizer. After a false start 
with regulation, Pennsylvania now seems to be moving in the 
same shared State-local cost approach. All this has produced 
good results and promise for more results in coming years.
    In fisheries management, there are also encouraging signs. 
We have told the tale of the recovery of the striped bass. In 
recent actions by Maryland and Virginia to reduce crab 
harvests, we see that the States are beginning to take tough 
decisions.
    One tough decision is probably long overdue, related to the 
harvest of menhaden which is a major food fish for the striped 
bass and probably leading to high crab mortality with its 
removal. Interestingly, this decision is in the hands of the 
Federally established Atlantic States Marine Fishery Commission 
which has been slower to act than the States.
    In other areas, the sources of nutrients and sediments are 
air pollution, stormwater and agriculture. Here, we start to 
encounter the real reluctance to make the taxes or regulation 
decision.
    Air pollution comes from power plants, motor vehicles and 
farms. The regulatory structure is in place to deal with this, 
but it has been ineffective in recent years. Controls on power 
plants and autos have been held up in endless legal and 
administrative disputes, and nobody even wants to look at the 
farm sources.
    In addition to that, internally, EPA is pretty badly 
crippled by the inability of their air bureaucrats to talk to 
the water bureaucrats and to think very far outside their 
narrow air focus. The solution here is leadership and making 
better use of the authorities already in place.
    In stormwater, we have authority within EPA and the States 
to issue regional permits to urban counties and cities. 
Although most of these permits have been issued, they are very 
vague, hortatory or soft. There are opportunities here to tie 
stormwater permits to the required pollution reductions, but 
there is real reluctance.
    Madam Chair, right here in our own region in the Anacostia, 
citizens of Prince Georges County, Montgomery County and the 
District of Columbia have spent five long years trying to get 
Maryland and EPA to agree to require Montgomery and Prince 
Georges Counties to reduce flows and peak flows to the 
Anacostia and its tributaries as part of the stormwater 
permits. The jury is still out after five years.
    These are all problems that are solvable if EPA was willing 
to aggressively apply its existing stormwater provisions and 
States and localities were willing to respond with programs to 
charge users and set up stormwater utility districts. But these 
are not politically popular actions, and there has not been an 
informed enough public to force them to happen.
    Finally, agriculture remains the single largest source, and 
States have been funding programs for a number of years. Recent 
Federal Farm Bill provisions provide additional help, but the 
funding gap is still immense for agriculture.
    Federal regulation of farmers is not going to happen, but 
there may be things that the States need to start to consider. 
For example, what if there is not enough money to carry out a 
clearly cost-effective agriculture practice? Should we rely on 
purely voluntary action by farmers?
    Perhaps now that Congress has acted and provided the 
Federal funds, at this point, further progress is going to 
require the States to make the decision between taxes and 
regulation for agricultural management.
    In conclusion, it seems to me the issue for this 
Subcommittee and the Congress is not the need for new Federal 
authority in the Chesapeake. It is assuring that Federal 
agencies are fully and properly using the authorities already 
in place.
    Much as EPA has used its point source permit programs with 
the States to make real progress in sewage treatment plant 
upgrades, we need to see the Federal Executive Branch use its 
authority to manage interstate fisheries, to break logjams and 
recognize the water pollution effects of nitrogen under the 
Clean Air Act and to assure that EPA is effectively using its 
stormwater authorities.
    Similarly, the State partners need to continue funding the 
treatment plant upgrades and making tough decisions on 
fisheries management, developing innovative stormwater 
solutions and taking on the task of making choices about taxes 
and regulation to get results from agriculture.
    Madam Chairwoman, the issues facing the Chesapeake require, 
and I appreciate the leadership you have shown in calling and 
holding this hearing. Thank you.
    Ms. Edwards. Thank you.
    Mr. Murphy.
    Mr. Murphy. Thank you, Chairwoman Edwards and Members of 
the Subcommittee for the invitation to appear before you with 
my fellow panelists, all of whom I have known and admired for 
many years.
    My name is Tayloe Murphy. I am an attorney and lifelong 
resident of the Northern Neck of Virginia. From 1982 to 2000, I 
was a member of the State House of Delegates and, from 2002 to 
2006, I was Virginia's Secretary of Natural Resources during 
the Administration of Governor Mark Warner.
    During each of my 22 years of public service, I was a 
member of the Chesapeake Bay Commission whose very capable 
executive director is also here today.
    When I was asked to be a witness at this afternoon's 
hearing, I was told that today's testimony might have some 
influence on the next reauthorization of the Chesapeake Bay 
Program. I hope that what we say will be helpful as we express 
our personal views of the past successes of the program and the 
problems that will need to be addressed in the future.
    The most basic benefit arising from Federal participation 
in the Chesapeake Bay Program is the scientific and modeling 
capacity that the Federal-State partnership is able to muster. 
Without good science, it would be impossible to identify the 
most important problems and design programs to solve them. The 
States have never had the research and scientific capacity that 
the Chesapeake Bay Program has and, by themselves, they never 
will.
    Within the Bay Program structure, the Environmental 
Protection Agency brings to the table its scientific and 
technical expertise as well as that of other Federal agencies. 
In addition to the EPA's science and modeling, the program 
benefits from NOAA, Chesapeake Bay Science as well as that of 
the U.S. Geological Survey, the Fish and Wildlife Service, the 
National Park Service, the agriculture departments, Beltsville 
Ag Research Program, the U.S. Forest Service and the Natural 
Resources Conservation Council.
    Only an organized collaboration like the Chesapeake Bay 
Program can bring all of this Federal science together and 
focus it on the Bay's needs.
    It was this Bay Program science that established the 
criteria for the development of new water quality standards for 
the Bay and its tidal tributaries. These standards for 
dissolved oxygen, chlorophyll A and water quality, in turn, 
formed the basis for determining the nutrient and sediment 
reductions necessary to meet the new standards and restore the 
Bay.
    As a result, in 2003, all six Bay States, the District of 
Columbia and EPA agreed to cap annual nitrogen loadings at 165 
million pounds and annual phosphorus loadings at 12.8 million 
pounds. The Bay Program used its monitoring information to do 
basin-wide modeling of nutrient loadings, enabling development 
of scientific and specific nutrient allocations for all 
jurisdictions within the watershed.
    Since these allocations were agreed upon, each jurisdiction 
has undertaken the process of refining its tributary strategies 
to determine the extent of the non-point practices and the 
levels of wastewater treatment that are necessary to achieve 
its reduction goals and then maintain its caps.
    I would argue the Bay Program partners have a good handle 
on the nature and causes of the Bay's water quality and 
ecological problems. Moreover, they have established a 
framework for accelerating water quality cleanup through the 
adoption of the new standards and reduction goals.
    The basic weakness of the program is not something that can 
be cured by changes to the Bay Program structure. The reason 
the program has not made progress in restoring water quality is 
very straightforward. Nutrient reduction costs money, a lot of 
money.
    There are many thousands of localities and farmers who need 
to act, and curbing stormwater pollution requires actions by 
millions of Bay citizens. All of them need the financial help 
of our Federal, State and local lawmakers.
    I would urge them to begin putting natural resources 
conservation and environmental protection at the top of the 
list of priorities for public funding rather than at or near 
the bottom where it has been since I entered public service 
over 25 years ago.
    The restoration of the Chesapeake Bay is possible, but it 
is not assured. We have established measurable nutrient 
reduction goals which are defensible, and we have put in place 
the programs necessary to achieve those goals. The financial 
resources required to implement those programs and reach those 
goals are what we lack.
    Notwithstanding the criticism often leveled by the 
Chesapeake Bay Program Office and other Bay agencies for the 
lack of progress in returning the Bay to a healthy condition, I 
would submit that our failures are not the fault of the 
agencies but rather the failure to recognize the fundamental 
principle that where the environment is concerned, there is no 
free lunch.
    What this means is simply this: Everything we do that 
adversely affects the environment imposes a cost, and that cost 
must be paid by somebody, if not by you or by me, then by 
someone else.
    Our failure as public servants, whether Federal, State or 
local, to bear the cost of protecting the Chesapeake Bay has 
transferred the cost to the commercial watermen facing 
condemned oyster grounds and dwindling populations of crab and 
finfish to the seafood packer looking further and further 
afield for products to market and to the tourist business whose 
customers are driven away by polluted waters. All of these and 
others have paid the cost because we have failed to protect 
their workplaces.
    Now is the time for the Bay partners to pick up the tab and 
restore these groups the livelihood of which they have been 
deprived through no fault of their own.
    Thank you, Madam Chairwoman.
    Ms. Edwards. Thank you, Mr. Murphy.
    Ms. Swanson.
    Ms. Swanson. Thank you for pulling up the rear. I would 
like to take just a moment and make a suggestion, a procedural 
question suggestion, which is the next time that we do this I 
hope that we go alphabetical order by first name and that I am 
invited back.
    [Laughter.]
    Ms. Swanson. So with that in mind, my name is Ann Swanson. 
I have served as the Executive Director of the Chesapeake Bay 
Commission for 20 years and have actually been involved in the 
Bay restoration beginning two months prior to the signing of 
the first Chesapeake Bay agreement. So I guess I am an 
institutional memory.
    What I hope to do today is to answer the Committee's 
questions of how do we treat this program, how do we make it 
better.
    But I think that it would be wrong if I didn't first extend 
a very heartfelt thank you to Congressman Gilchrest for all of 
his leadership and work. He has really given us a very strong 
hopeful knowledge that there is bipartisan support, bipartisan 
leadership in the Chesapeake Bay from the Congress, and that 
kind of available leadership means the world in keeping you 
going. So I thank you for that.
    Let me also say, before I begin the constructive criticism, 
that the Bay Program is the best of its kind in the Nation and 
to my knowledge the best of its kind in the world. And so, 
while criticism can be levied, the sad thing that we also have 
to recognize is it is the best we have which means if it is the 
best we have, just like the best students in school, you try to 
invest in them and make sure that they can lead and provide 
leadership for the future.
    I would tell you by any measure I have seen that the 
Chesapeake Bay Program and the efforts of the States and the 
Congress really are beneficial and progressive. That being 
said, I also know that it is stalling and that it needs 
improvement.
    That is where I can only agree with my colleagues to the 
right in saying fundamentally the lack of improvement seems to 
boil down, I would say, to three things which can guide you in 
the future. One is funding, two is regulation and enforcement 
and three is targeted implementation, which take me to my 
recommendations of which I would like to make five.
    The first is that Congress needs to come forward and demand 
a strategy for reaching the goals, not a plan. We have plenty 
of plans, the cap being the most recent. But a strategy is 
about time lines. It is about making sure that you have 
deadlines. Humans function with deadlines.
    The other thing is not to just identify available cash but 
to identify funding gaps because that puts the challenge in 
perspective, and that is what is lacking in our current plans.
    The second is that we really need report cards, not at a 
bay-wide scale but at a river or river basin scale. The reason 
is because that puts States, local governments and citizenry on 
record not only with knowledge of what is going on but also to 
some degree, accountability.
    And, to incite a little bit of competition among the local 
governments, I think would do us a world of good in this 
situation.
    The third has to do with the TMDL. The TMDL is an excellent 
provision of the Clean Water Act, but it is flawed in that it 
really does focus on those regulatory tools at hand which 
leaves 80 percent of the pollutant load in the Chesapeake Bay, 
the non-point source, not really addressed.
    You need to take a careful look at the reasonable assurance 
provisions and at the margins of safety and do what you can to 
make sure. In the Chesapeake Bay region, there are serious 
demands to address reasonable assuredness. How do we know that 
the TMDL that is proposed actually can be implemented and, if 
it can't, be sure we must identify the consequences of an 
unattained load allocation goal?
    We also need to, of course, not only address the point 
sources or the regulated non-point, like stormwater MS4, but 
all of the pollutant load because in the Chesapeake Bay our 
point sources are not our biggest Achilles' heel. They are not.
    If we were to address full bore every point source, we 
still wouldn't clean the Bay. We would only have 20 percent, an 
important point.
    The fourth has to do with this stormwater provision. This 
Committee, right now, is taking a look at H.R. 6550. I would 
tell you that a watershed-wide stormwater action plan is a good 
thing and that that kind of pressure put on the States to 
address that is important.
    I call to your attention the cost effectiveness analysis 
that the Chesapeake Bay Commission conducted which clearly 
shows we do not have the money or the regulatory authority to 
address stormwater. We need a plan.
    And, last, I would like to encourage you to reauthorize the 
Bay Program at the $50 million a year. The reason I say that is 
look at the amount of money it has leveraged at the State 
level. Look at the cap. Look at that inventory. Fifty million 
dollars is actually very small compared to the amount of 
dollars it gets the States and local governments to invest.
    So, with that, I thank you, Madam Chairwoman, our newest 
Member and also all of the others here--Mr. Platts, Mr. 
Boozman, Mr. Gilchrest--for your time today.
    Ms. Edwards. Thank you.
    Each of you, in your statements, raised the question of 
accountability and enforceability. And so, I would like to turn 
to Mr. Hoagland's suggestion that Congress should modify the 
Clean Water Act to ensure that the EPA's existing reasonable 
assurance policy be used to ensure that TMDL load reductions 
for all non-point source pollution are achieved.
    I appreciate your comments on the proposal. I am 
particularly interested in the impact on local planning 
authorities and their ability to create more than just a wish 
list for protecting the Bay and the watershed but to have real 
requirements imposed on them.
    Mr. Boesch?
    Mr. Boesch. Yes. First of all, with respect to Mr. 
Hoagland's basic proposal of reasonable assurance and 
enforceability, as a scientist, as an empirical scientist, I 
can tell you I don't know of any place in the world that solved 
this nutrient over-enrichment issue just with voluntary 
measures.
    In fact, if you look at environmental issues generally, 
there needs to be some sort of a regulatory driver requirement 
to adjust the procedures and markets and taxes and so on to 
make these things happen. So it is not necessarily a matter of 
philosophy, just of observation.
    With respect to this challenge with these non-point 
sources, we have methods, and we are just challenged to 
implement them.
    Like we have in Maryland with this Chesapeake Bay 2010 
Trust Fund that allows us a mechanism, given the flexibility, 
given an accountability, to implement measures across different 
sectors of non-point sources. Coupled with increased regulatory 
enforcement, it does allow a means forward.
    So for example, in our jurisdictions now, Montgomery County 
is coming up in its new stormwater permit. EPA delegated to the 
States. The States are working with the counties to develop the 
stormwater regulations. That will be sort of a benchmark as we 
move forward.
    But even then, if we are to do that, on the table for 
negotiation is something like a 30 percent requirement of 
treating the stormwater, 30 percent of the stormwater. It will 
still fall short of what we have estimated is going to be 
required to meet the Bay tributary strategy.
    So it is going to have to be an incremental approach, and 
it is also going to have to have Federal and State assistance 
to make it happen.
    Mr. Fox. Madam Chair, I haven't used the acronym TMDL in 
this Committee in probably about eight years. For those 
veterans here, you will know it was a very different time.
    But I, in the Clinton Administration, advanced I think 
arguably the most comprehensive TMDL regulations ever proposed. 
I don't want this to sound too partisan, but when the Bush 
Administration came into office they removed these regulations 
and haven't since promulgated anything since then.
    The fundamental tenet that we were trying to do at the time 
was to create a sense of reasonable assurance in a TMDL context
    For those of you that aren't as familiar with this, a TMDL 
is really just a pollution budget. It is a statement of how a 
regulatory agency will meet pollution standards in a water body 
by allocating the different pollution loads.
    The proposal, and I am happy to work with the Committee and 
the staff in talking about this in more detail, but the 
proposal as it was described here probably isn't going to solve 
our problems. I say that because an enforceable TMDL, in and of 
itself, doesn't necessarily get to the control actions on the 
ground and on the water. We would have to look at other parts 
of the statute other than Section 303 to really try to 
accomplish that in my opinion.
    I think it is also important to note for the record that 
the definition of a point source under Section 502 of the Clean 
Water Act is very, very, very broad. I think it goes far. I can 
even go as far as to say that I haven't seen a lot of so-
called. Well, let me say this I haven't seen things that would 
not meet the definition of a point source at some time in the 
Chesapeake Bay watershed.
    As was testified to here earlier today, I think we can go a 
long way in improving water quality by just enforcing current 
law.
    Ms. Edwards. Does anyone else have a comment?
    Mr. Matuszeski?
    Mr. Matuszeski. I would like to suggest that the reasonable 
assurance concept would require a level of money and regulation 
of agriculture that is far, far beyond anything that anyone has 
seen her or anywhere else in this Country if we wanted it to 
happen.
    It would also have to deal with the issue of stormwater. 
While a lot of attention has been given to new development, and 
we do have a lot of terrific technological solutions for 
handling stormwater with new development.
    In areas such as the existing urban areas, and once again 
the Anacostia is a perfect example, the problem is not new 
development. The problem is existing development. The problem 
is that 85 percent of the sediment load in the Anacostia River 
comes from stream bank erosion from stormwater that is being 
rushed in and eroding those banks.
    The solution to that is not cheap. The solution to that is 
going to require a whole new set of institutions including 
stormwater districts and charges that people are going to have 
to have on their sewer and water bills that they are not 
accustomed to having.
    So it is not a simple solution to get to reasonable 
assurance.
    Ms. Edwards. Thank you.
    Mr. Boozman.
    Mr. Boozman. Thank you very much.
    Dr. Boesch, what would you say? We had others verse what 
they felt like the percentages were from various things: farm, 
point source, whatever. How would you lay that as where the 
pollution is coming from?
    Mr. Boesch. I think there is sort of reasonable agreement 
on that. So, for example, take agriculture. The best recent 
estimates are something like at least 40 percent of the 
nitrogen and about 48 percent of the phosphorus coming in.
    There is debate about exactly how much of the nitrogen is 
coming in from atmospheric input because it lands on the land. 
I think we have to calculate it, separate it out from all the 
other things that are happening on the landscape.
    Mr. Boozman. In regard to the agriculture, if you had just 
virgin land, how much a percentage? In other words, you have 
leaves and stuff like that running into it.
    Mr. Boesch. Right. If one would take, based on----
    Mr. Boozman. I guess what I am saying is, and I don't mean 
to interrupt. I am sorry.
    Mr. Boesch. Sure.
    Mr. Boozman. If you did all of the practices that you could 
envision, there is still nitrogen and there is phosphorus 
coming from the land. What percentage would that be?
    Mr. Boesch. If one imagines a virgin watershed or a 
completely forested watershed compared to an agricultural piece 
of the watershed, the increase in nitrogen loading, for 
example, because of agriculture, present agriculture is 
something like 100-fold of what it was on a natural, on a per 
acre basis.
    Now it is not possible to conduct agriculture and make it 
so that it only is yielding as much as a natural forest, but 
the targets are getting it back to a 50 percent reduction or 
something of that sort.
    That is going to take a very careful, much more attention 
to the budget of how a farmer is managing the fertilizer. There 
are opportunities for cost savings in doing that too because 
fertilizer costs are rising rapidly. So there are some 
potential benefits to a more efficient use of fertilizers and 
animal waste for fertilization of farm fields.
    Mr. Boozman. Okay. So if you had a 40 percent contribution, 
really the amount that you could decrease it would be by half 
of that?
    Mr. Boesch. In a general term, the 2010 targets would be to 
reduce both nitrogen and phosphorus by roughly 50 percent by 
2010. We are less than halfway there for both nitrogen and 
phosphorus based upon optimistic assumptions of the models.
    Mr. Boozman. You all can chime in, from whomever feels like 
they would like to answer.
    The point sources that we have, what do they normally run 
as far as phosphorus in the area? What would be the average? 
What would you like for them to be and where are they at now?
    Mr. Boesch. Well, the point sources were at one time a 
significant part of the phosphorus inputs into the Bay. What we 
did over the period of time is when we added wastewater 
treatment, we began to remove phosphorus from wastewater 
streams.
    An example of the success of that is right behind us, the 
Potomac River Estuary where back in the sixties and seventies 
we started to remove phosphorus and improve water quality.
    Nitrogen became a more difficult issue, but now we are in 
the process of implementing enhanced nitrogen removal from most 
of our major wastewater treatment plants. It is going to really 
reduce the percentage of the input from wastewater.
    Mr. Boozman. Would they be like one part per million or 
half? Two? Three?
    Mr. Boesch. Removing nitrogen I think the performance goal 
is three, three milligrams per liter.
    Mr. Boozman. And as far as the phosphorus, what would it 
be?
    Ms. Swanson. I was just going to add because I know I work 
for a lot of legislators, and it is very helpful. If you are 
treating your sewage at an advanced level, you are somewhere 
between 18 and 25 milligrams per liter nitrogen just across the 
Country.
    With these enhanced nitrogen removal systems, you can get 
it anywhere down from four milligrams per liter to seven or 
eight milligrams per liter. So it is truly low
    Mr. Boozman. Where are you at now, though?
    Ms. Swanson. We have many, many plans now that are down at 
four, five, six, seven, eight.
    All of the majors, for example, in Maryland, all of the 
majors are funded to go to full-scale ENR in the next four 
years. In Pennsylvania, they are taking the major plants down 
to eight milligrams per liter. In Virginia, it is anywhere from 
four to six milligrams per liter. That is for the big plants 
that are 500,000 gallons or more.
    Mr. Boozman. Right. As far as phosphorus?
    Ms. Swanson. For phosphorus, we have advanced phosphorus 
removal throughout the watershed, and so that is one thing. The 
Chesapeake Bay region can hold its head very high, very high on 
point sources.
    The other thing, and I have to recognize your work. Thanks 
to the work of the United States Congress, the new infusion of 
dollars and policy direction, and I want to emphasize that with 
the Farm Bill, will really address that 40 plus percent of the 
load which is the agricultural load. The onus is on us now to 
spend it wisely.
    That is why in some of this testimony you have heard so 
much about kind of the remaining non-point source loads, what 
is left, because if we are really successful in implementing 
the Farm Bill dollars coupled with our own State dollars and if 
we do fully achieve the ENR, we should finally see some serious 
progress.
    Mr. Fox. Madam Chair, I think I need to, I feel compelled--
I am sorry--to correct the record or at least an impression 
that I want to make sure the Committee has about what 
constitutes a point source under the Clean Water Act. I think 
this is something that is very important for everybody to be 
aware of because it goes, to me, to the heart of the challenges 
ahead.
    Under Section 402(p) of the Clean Water Act, all municipal 
stormwater sources are considered point sources. Under Section 
502 of the Clean Water Act, all CAFOs or Concentrated Animal 
Feeding Operations are considered point sources. Under Section 
502, any ditches, pipes, man-made conveyance of any pollution 
to the waters of the United States, these are point sources 
that, in theory, are regulated.
    So I think it is important to make this distinction because 
there is this impression left oftentimes that if something is a 
non-point source, it is therefore not in the regulatory system, 
and there are not very clear expectations that should happen 
with them.
    Thank you.
    Mr. Boozman. Very good. Yes.
    Ms. Swanson. So I was really referring to our municipal 
point sources, our sewage treatment plans, our waste treatment 
plants.
    Mr. Murphy. Madam Chairman?
    Mr. Boozman. Yes.
    Mr. Murphy. In response to the figures that have been used 
this afternoon regarding the percentages of nutrient pollution 
that is attributable to agriculture or to wastewater treatment 
facilities, I think you have to look at it jurisdiction by 
jurisdiction. You cannot look at it simply based on the figures 
for the entire Chesapeake Bay watershed.
    In Virginia, for example, sewage treatments plants account 
for 30 to 33 percent of the nutrient. It is not 20 as has been 
stated for the watershed.
    And so, you have to look at each jurisdiction and look at 
our tributary strategies that we have developed in the various 
jurisdictions to determine what practices are important for 
what jurisdiction.
    We have to do site-specific analysis of our tributaries to 
ensure that the appropriate measures are being taken, tributary 
by tributary, not looking at the Bay watershed as a whole 
necessarily but looking at the sum of the parts. It is the 
cumulative effect of the various programs that is ultimately 
going to spell success for the entire watershed.
    Mr. Boozman. Let me just say one more thing and, again, you 
can comment.
    I guess from the testimony, it seems like you all are in 
unison as to what you feel like you need to do. Fairly much, 
okay. The reality is how do you get that done.
    The things that you are advocating, I am very familiar with 
this from the water battles with Oklahoma and things like this 
in Missouri. The reality is what you are advocating--the TMDL, 
loading and things like that and the other things--no State 
legislature would agree with you. Most cities would not agree 
with you. Most counties would not agree with you.
    So the answer can't be you guys fix it, meaning the Feds, 
and provide us the money. I mean that is not going to happen.
    I think we will be glad to help you as you decide, as you 
work through those entities, but that really is the bottom 
line.
    I would agree with you, Mr. Fox, and I think all of you 
would agree with this too. I guess one of my frustrations is 
there really is a lot of stuff under current law that we could 
help with and you could help with, without pushing in some 
areas that are so controversial that it is very difficult to 
get done.
    I am a guy that feels like we need to push in increments 
and get things done, but there is a lot on the table right now 
that we could do a much better job of it, that I think would 
make a difference.
    So you can comment if you like. I apologize if I am going 
over.
    Mr. Hoagland. Madam Chairman, I have two comments.
    The first is, Mr. Boozman, you are exactly right. I mean I 
don't think anybody here at this panel, and I have worked with 
all of them, are politically naive in terms of what the burdens 
are we have to overcome in terms of what you rightfully 
recognize as opposition at the State and local levels at times.
    I do want to share with you the fact that this issue of 
reasonable assurance. We are actually seeing progress within 
the Maryland the Virginia State governments asking for it to be 
in fact defined more clearly, so that they can in fact have 
some of the support through EPA, so that this TMDL, which the 
process has already started, required by law, does in fact have 
some substance and they can rely on it.
    So we are working, at least from the Bay Foundation's 
perspective as well as the Commission's perspective, trying to 
bring State governments along with us on this issue also, and 
there has been movement there.
    The second thing is I think it is really important for all 
of us here to remember that we tend to be focusing on the non-
point source discussion. The Bay needs a reduction of 110 
million pounds of nitrogen according for it to be healthy, 
according to all the science. That is our goal, a 110 million 
pound reduction.
    Ann of the Bay Commission has spoken about the point source 
success we have had to date in your response to your questions.
    I think it is really important for us to remember, and part 
of my presentation was focusing on changing the way the Federal 
Government looks at handling Bay restoration. Part of the 
change the Federal Government is going to have to take with 
point source is it is going to have to stand firm on those 
reductions that we have accomplished.
    We are already seeing some pushback on the point source 
level that when in fact the rubber meets the road, local 
governments or State Governments are saying, no, we have to 
readjust. We have to take that allocation that is going to take 
us to the 110 million pound. We need to inch it back up.
    So the Federal Government needs to play an equally 
important role in ensuring that the reductions and the 
accomplishments we have made between funding and regulation are 
met over time as we go forward.
    Ms. Edwards. Thank you.
    Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Madam Chairman.
    Well, I think I know everybody but Mr. Murphy. Welcome to 
Washington, Mr. Murphy, and congratulations on your public 
service and your testimony.
    Of course, Mr. Fox has been the only one canoeing on 
Turner's Creek. So we have to get the rest of you guys down 
there.
    Maybe during the month of August, we will have a little 
picnic down there and eat sweet corn. We might give the crabs 
some relief, so we won't have a crab feast. We will just have 
some sweet corn.
    Then we will go canoeing and look at those areas where the 
agriculture has changed. Nutrient management has come in. 
Buffers have been employed. Beautiful SAVs and wild rice and 
American lotus blossoms have come back, and they are at their 
height right now. If you wait too long, you won't see them.
    I would like to ask. We all know how complex and how big 
and how all encompassing the Chesapeake Bay Program is and your 
part and your effort to deal with it, from runoff, from all 
sources, even now from climate change and its impact.
    Farm use of these dollars, the broad perspective of the 
program: We want to reauthorize it, and we want to make sure 
that we capture the essence of the complexity and the broad 
nature of this program in the reauthorization.
    My question, though, is as we go through to emphasize 
certain areas, to buttress those certain areas, would you 
recommend that we pay close attention to EPA's authority as we 
go through the reauthorization, to hold certain people 
accountable for point sources such as stormwater or accountable 
for TMDLs, which I think we are going to do, but is that an 
emphasis?
    Mr. Murphy spoke very eloquently about local government. We 
all know that is where the stormwater runoff is, in local 
areas. That is where those pipes come in. That is where the 
development comes in. That is where innovative development or 
not innovative development, smart growth or not smart growth.
    So should we emphasize local government as far as time 
frames are concerns, report cards for this river are concerned, 
accountability for local government is concerned, incentives 
for local government?
    We will authorize this from time immemorial. We understand 
we want to make sure all those farm dollars in the Farm Bill 
get spent appropriately and that they get interconnected, that 
there is some consilience, that there is some unity between all 
the various governments, all the various agencies--State, 
Federal and local--to implement some of these programs.
    Is it time, though, for us to focus and emphasize on local 
government as far as the science is concerned, accountability 
is concerned, incentives are concerned and their own governance 
of these issues is concerned?
    I will leave it at that for your answers.
    Mr. Murphy. Mr. Gilchrest, anyone who has been involved 
with government below the Federal level has heard the term 
unfunded mandate. Everyone who has ever been involved in local 
government or State government refers to the requirements that 
the Federal Government places on the States and localities as 
an unfunded mandate.
    While I do not disagree with my fellow panelists who 
believe that we need additional regulations in both the point 
source and non-point source areas, I think that those 
regulations must be accompanied by financial assistance. I see 
nothing wrong with assisting the localities or the State 
governments with public funds to meet the regulatory 
requirements that are placed upon them.
    When we adopted new regulations in Virginia imposing 
nutrient limits in wastewater treatment permits, we added funds 
to our Water Quality Improvement Fund to assist the localities 
in meeting the requirements of the new permits that were going 
to be issued to them, requiring substantial upgrades in their 
sewage treatment plants. I think that is an appropriate 
approach to take.
    I think that we need to show leadership at the Federal and 
State levels insofar as giving incentives to our local 
governments to do the right thing and then for their farming 
community and everyone who is involved because this is not just 
a governmental issue. It is an individual problem as well as a 
governmental problem.
    I think when we regulate, whether it is an individual or 
whether it is a local government or a State Government, we need 
to think in terms of how do we help those lower levels achieve 
the goals through financial assistance.
    Mr. Fox. Mr. Gilchrest, I would really analyze this problem 
this way. The Bay Program has defined very precisely what we 
need to do on the ground to save the Bay. Literally, you can 
get online and find out specifically what practices need to be 
implemented in what watershed.
    I think the question we need to ask ourselves is how can we 
effect the delivery of these practices on the ground in a 
timely way, in an accountable way? In some cases, the answer 
might be new authority, and I can give you some examples, and 
we can talk more about where new authority might be granted 
here.
    I think it is also worth mentioning in terms of Secretary 
Murphy's point here and getting to the comments of the Ranking 
Minority Member. There is opposition from States and local 
governments for some of these ideas.
    But I will tell you as the former Assistant Administrator 
for Water, every single drinking water regulation I did had 
lots of opposition from the States and local governments. When 
Congress enacted the first Clean Water Act in 1972, it had a 
lot of opposition from State and local governments.
    I really think at this point, we have to decide as a 
society how important is Chesapeake Bay to us. Just downstream 
here on the Potomac River, we are spending $2 billion in 
improving the Wilson Bridge. We are spending $1.5 billion to $2 
billion in improving BWI Airport just up the road from me.
    The worst case estimates for the cost of cleaning up the 
Bay are in the same zone. I think we as a society and you all 
as a Congress really need to look at this part of the equation.
    The Office of Management and Budget back in the Clinton 
Administration did an analysis of environmental regulation. It 
is true; they had a very high cost. The annualized cost was 
something on the order of an average of $40 billion a year.
    But the important thing in that analysis was that the 
benefits of those environmental regulations were three to five 
times greater than the costs, and I think that is the 
fundamental challenge we face here in the Bay.
    Ms. Swanson. I would like to add something as someone how 
has witnessed the Bay Program for so many years. You can 
actually improve authorities and mandate. I will have to say 
that as a professional in the field, probably the greatest 
environmental gains I have seen have indeed been coupled with 
regulation versus more voluntary approaches.
    But in the Chesapeake region, there is an interim stage 
that has worked well to make us one of the leaders in 
environmental restoration efforts, not utterly successful, but 
one of the leaders. That is Federal guidance that comes in, 
that explains to us in the region what are your expectations 
for the cash that you are putting on the table.
    In that sense, like I know in the Chesapeake Bay 
Commission's testimony, and the Commission is House and Senate 
Members from three States--Maryland, Pennsylvania and Virginia. 
Many of those suggestions are guidance to the region.
    Fundamentally, the State partners would have to come 
together and help develop that strategic stormwater plan or 
help develop that reasonable assurance. But if we were hearing 
a strong guidance from the Federal level that that is the 
expectation with the dollars that are forthcoming, I think it 
could be quite constructive.
    And, I will share with you that some of our Members, 
confidentially--these are House and Senate Members--when they 
are talking, they basically say, I have to tell you Ann, I will 
quote: ``It ain't gonna happen if we are not told to do it.''
    And so, there is some give and take in that relationship 
between the Federal Government and the State government that 
does allow for healthy progress forward.
    Mr. Matuszeski. I would like to add another element to this 
which is the concept of public support. Every public opinion 
survey that has been given about the Bay indicates that the 
public really wants to clean up the Chesapeake Bay, and every 
survey that has been taken says they are willing to pay a 
substantial amount for it.
    I think one of the areas we have failed is in making the 
case for innovative new ways to help pay. I think a perfectly 
interesting example of this is when Maryland decided it wanted 
to develop a State way of supporting the local governments' 
upgrade of sewage treatment plants. They put a bill in to raise 
taxes by putting it on everybody's sewer bill.
    The opponents of this dubbed it a flush tax. Everyone 
horrified, who was in favor of this, saying this is going to 
doom the bill.
    Well, it turned out the public loved the idea of a flush 
tax, and the public said: Okay, a flush tax, we can understand 
that. That relates to something that we know about.
    So maybe we should be thinking more about oyster taxes and 
crab taxes and sweet corn taxes and ways in which we can really 
work with local governments while at the same time making 
maximum use of Federal authorities, making use of Federal funds 
and guidance but working very hard on how to sell the public on 
what is going to take and giving them opportunities to choose 
the ways in which they can pay.
    Ms. Edwards. Thank you.
    Mr. Gilchrest, did you have any further questions?
    Mr. Gilchrest. No, thank you.
    Ms. Edwards. As we prepare to adjourn, I just want to 
follow up on the comments of Mr. Boozman and ask each of the 
witnesses, if you would, to provide the Committee with a list 
of current Clean Water Act authorities that may need stricter 
enforcement as well as any recommendations for change of the 
existing law that might aid us in our efforts to reauthorize 
the Chesapeake Bay Program and really show progress in 
addressing the health of the Bay.
    I appreciate your being here. Thank you for the Committee's 
indulgence of my first opportunity at the Chair.
    The meeting is adjourned.
    [Whereupon, 5:25 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 43941.012
    
    [GRAPHIC] [TIFF OMITTED] 43941.013
    
    [GRAPHIC] [TIFF OMITTED] 43941.014
    
    [GRAPHIC] [TIFF OMITTED] 43941.015
    
    [GRAPHIC] [TIFF OMITTED] 43941.016
    
    [GRAPHIC] [TIFF OMITTED] 43941.017
    
    [GRAPHIC] [TIFF OMITTED] 43941.018
    
    [GRAPHIC] [TIFF OMITTED] 43941.019
    
    [GRAPHIC] [TIFF OMITTED] 43941.020
    
    [GRAPHIC] [TIFF OMITTED] 43941.021
    
    [GRAPHIC] [TIFF OMITTED] 43941.022
    
    [GRAPHIC] [TIFF OMITTED] 43941.023
    
    [GRAPHIC] [TIFF OMITTED] 43941.024
    
    [GRAPHIC] [TIFF OMITTED] 43941.025
    
    [GRAPHIC] [TIFF OMITTED] 43941.026
    
    [GRAPHIC] [TIFF OMITTED] 43941.027
    
    [GRAPHIC] [TIFF OMITTED] 43941.028
    
    [GRAPHIC] [TIFF OMITTED] 43941.029
    
    [GRAPHIC] [TIFF OMITTED] 43941.030
    
    [GRAPHIC] [TIFF OMITTED] 43941.031
    
    [GRAPHIC] [TIFF OMITTED] 43941.032
    
    [GRAPHIC] [TIFF OMITTED] 43941.033
    
    [GRAPHIC] [TIFF OMITTED] 43941.034
    
    [GRAPHIC] [TIFF OMITTED] 43941.035
    
    [GRAPHIC] [TIFF OMITTED] 43941.036
    
    [GRAPHIC] [TIFF OMITTED] 43941.037
    
    [GRAPHIC] [TIFF OMITTED] 43941.038
    
    [GRAPHIC] [TIFF OMITTED] 43941.039
    
    [GRAPHIC] [TIFF OMITTED] 43941.040
    
    [GRAPHIC] [TIFF OMITTED] 43941.041
    
    [GRAPHIC] [TIFF OMITTED] 43941.042
    
    [GRAPHIC] [TIFF OMITTED] 43941.043
    
    [GRAPHIC] [TIFF OMITTED] 43941.044
    
    [GRAPHIC] [TIFF OMITTED] 43941.045
    
    [GRAPHIC] [TIFF OMITTED] 43941.046
    
    [GRAPHIC] [TIFF OMITTED] 43941.047
    
    [GRAPHIC] [TIFF OMITTED] 43941.048
    
    [GRAPHIC] [TIFF OMITTED] 43941.049
    
    [GRAPHIC] [TIFF OMITTED] 43941.050
    
    [GRAPHIC] [TIFF OMITTED] 43941.051
    
    [GRAPHIC] [TIFF OMITTED] 43941.052
    
    [GRAPHIC] [TIFF OMITTED] 43941.053
    
    [GRAPHIC] [TIFF OMITTED] 43941.054
    
    [GRAPHIC] [TIFF OMITTED] 43941.055
    
    [GRAPHIC] [TIFF OMITTED] 43941.056
    
    [GRAPHIC] [TIFF OMITTED] 43941.057
    
    [GRAPHIC] [TIFF OMITTED] 43941.058
    
    [GRAPHIC] [TIFF OMITTED] 43941.059
    
    [GRAPHIC] [TIFF OMITTED] 43941.060
    
    [GRAPHIC] [TIFF OMITTED] 43941.061
    
    [GRAPHIC] [TIFF OMITTED] 43941.062
    
    [GRAPHIC] [TIFF OMITTED] 43941.063
    
    [GRAPHIC] [TIFF OMITTED] 43941.064
    
    [GRAPHIC] [TIFF OMITTED] 43941.065
    
    [GRAPHIC] [TIFF OMITTED] 43941.066
    
    [GRAPHIC] [TIFF OMITTED] 43941.067
    
    [GRAPHIC] [TIFF OMITTED] 43941.068
    
    [GRAPHIC] [TIFF OMITTED] 43941.069
    
    [GRAPHIC] [TIFF OMITTED] 43941.070
    
    [GRAPHIC] [TIFF OMITTED] 43941.071
    
    [GRAPHIC] [TIFF OMITTED] 43941.072
    
    [GRAPHIC] [TIFF OMITTED] 43941.073
    
    [GRAPHIC] [TIFF OMITTED] 43941.074
    
    [GRAPHIC] [TIFF OMITTED] 43941.075
    
    [GRAPHIC] [TIFF OMITTED] 43941.076
    
    [GRAPHIC] [TIFF OMITTED] 43941.077
    
    [GRAPHIC] [TIFF OMITTED] 43941.078
    
    [GRAPHIC] [TIFF OMITTED] 43941.079
    
    [GRAPHIC] [TIFF OMITTED] 43941.080
    
    [GRAPHIC] [TIFF OMITTED] 43941.081
    
    [GRAPHIC] [TIFF OMITTED] 43941.082
    
    [GRAPHIC] [TIFF OMITTED] 43941.083
    
    [GRAPHIC] [TIFF OMITTED] 43941.084
    
    [GRAPHIC] [TIFF OMITTED] 43941.085
    
    [GRAPHIC] [TIFF OMITTED] 43941.086
    
    [GRAPHIC] [TIFF OMITTED] 43941.087
    
    [GRAPHIC] [TIFF OMITTED] 43941.088
    
    [GRAPHIC] [TIFF OMITTED] 43941.089
    
    [GRAPHIC] [TIFF OMITTED] 43941.090
    
    [GRAPHIC] [TIFF OMITTED] 43941.091
    
    [GRAPHIC] [TIFF OMITTED] 43941.092
    
    [GRAPHIC] [TIFF OMITTED] 43941.093
    
    [GRAPHIC] [TIFF OMITTED] 43941.094
    
    [GRAPHIC] [TIFF OMITTED] 43941.095
    
    [GRAPHIC] [TIFF OMITTED] 43941.096
    
    [GRAPHIC] [TIFF OMITTED] 43941.097
    
    [GRAPHIC] [TIFF OMITTED] 43941.098
    
    [GRAPHIC] [TIFF OMITTED] 43941.099
    
    [GRAPHIC] [TIFF OMITTED] 43941.100
    
    [GRAPHIC] [TIFF OMITTED] 43941.101
    
    [GRAPHIC] [TIFF OMITTED] 43941.102
    
    [GRAPHIC] [TIFF OMITTED] 43941.103
    
    [GRAPHIC] [TIFF OMITTED] 43941.104
    
    [GRAPHIC] [TIFF OMITTED] 43941.105
    
    [GRAPHIC] [TIFF OMITTED] 43941.106
    
    [GRAPHIC] [TIFF OMITTED] 43941.107
    
    [GRAPHIC] [TIFF OMITTED] 43941.108
    
    [GRAPHIC] [TIFF OMITTED] 43941.109
    
    [GRAPHIC] [TIFF OMITTED] 43941.110
    
    [GRAPHIC] [TIFF OMITTED] 43941.111
    
    [GRAPHIC] [TIFF OMITTED] 43941.112
    
    [GRAPHIC] [TIFF OMITTED] 43941.113
    
    [GRAPHIC] [TIFF OMITTED] 43941.114
    
    [GRAPHIC] [TIFF OMITTED] 43941.115
    
    [GRAPHIC] [TIFF OMITTED] 43941.116
    
    [GRAPHIC] [TIFF OMITTED] 43941.117
    
    [GRAPHIC] [TIFF OMITTED] 43941.118
    
    [GRAPHIC] [TIFF OMITTED] 43941.119
    
    [GRAPHIC] [TIFF OMITTED] 43941.120
    
    [GRAPHIC] [TIFF OMITTED] 43941.121
    
    [GRAPHIC] [TIFF OMITTED] 43941.122
    
                                    

</pre></body></html>
